App. 1
FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
HOWARD JARVIS TAXPAYERS
ASSOCIATION; JONATHAN MARK
COUPAL; DEBRA A. DESROSIERS,
Plaintiffs-Appellants,

No. 20-15591
D.C. No.
2:18-cv-01584MCE-KJN

v.
CALIFORNIA SECURE CHOICE
RETIREMENT SAVINGS PROGRAM;
JOHN CHIANG, California State
Treasurer,

OPINION

Defendants-Appellees.
Appeal from the United States District Court
for the Eastern District of California
Morrison C. England, Jr, District Judge, Presiding
Argued and Submitted February 8, 2021
San Francisco, California
Filed May 6, 2021
Before: Andrew D. Hurwitz and Daniel A. Bress,
Circuit Judges, and Clifton L. Corker,* District Judge.
Opinion by Judge Bress

* The Honorable Clifton L. Corker, United States District
Judge for the Eastern District of Tennessee, sitting by designation.

App. 2
SUMMARY**
Employee Retirement Income Security Act
Affirming the district court’s dismissal, the panel
held that ERISA does not preempt a California law
that creates CalSavers, a state-managed individual
retirement account program for eligible employees of
certain private employers that do not provide their
employees with a tax-qualified retirement savings
plan.
The panel held that Congress’s repeal of a 2016
Department of Labor rule that sought to exempt
CalSavers from ERISA under a safe harbor did not
resolve the preemption question. Further, even if
ERISA’s safe harbor did not apply to CalSavers, the
panel would still need to determine whether CalSavers
otherwise qualified as an ERISA program.
The panel concluded that CalSavers is not an
ERISA plan because it is established and maintained
by the State, not employers; it does not require employers to operate their own ERISA plans; and it does not
have an impermissible reference to or connection with
ERISA. Nor does CalSavers interfere with ERISA’s
core purposes. Accordingly, ERISA does not preempt
the California law.

** This summary constitutes no part of the opinion of the
court. It has been prepared by court staff for the convenience of
the reader.

App. 3
COUNSEL
Laura E. Dougherty (argued), Jonathan M. Coupal,
and Timothy A. Bittle, Howard Jarvis Taxpayers
Foundation, Sacramento, California, for PlaintiffsAppellants.
Sharon L. O’Grady (argued), Deputy Attorney General;
Paul Stein, Supervising Deputy Attorney General;
Thomas S. Patterson, Senior Assistant Attorney General; Office of the Attorney General, San Francisco,
California; R. Bradford Huss, Joseph C. Faucher, and
Angel L. Garrett, Trucker Huss APC, San Francisco,
California; for Defendants-Appellees.
Peter K. Stris, Rachana A. Pathak, Douglas D. Geyser,
and John Stokes, Stris & Maher LLP, Los Angeles,
California; Barbara R. Van Zomeren, Ascensus LLC,
Brainerd, Minnesota; for Amicus Curiae Ascensus
LLC.
Dara S. Smith, and William Alvarado Rivera, AARP,
Foundation Washington, D.C.; Jeffrey Lewis, Erin Riley,
and Rachel E. Morowitz, Keller Rohrback LLP, Seattle,
Washington; for Amici Curiae AARP, AARP Foundation, California Hispanic Chamber of Commerce,
Small Business California, Small Business Majority,
Unidosus, United Ways of California, and Western
Center on Law and Poverty.
Ellen F. Rosenblum, Attorney General, Office of the
Attorney General, Salem, Oregon; Kwame Raoul, Attorney General; Jane Elinor Notz, Solicitor General;
Sarah A. Hunger, Deputy Solicitor General; Office of

App. 4
the Attorney General, Chicago, Illinois; for Amici Curiae States of Illinois and Oregon.
OPINION
BRESS, Circuit Judge.
This case presents a novel and important question
in the law governing retirement benefits: whether the
federal Employee Retirement Income Security Act of
1974 (ERISA), 29 U.S.C. § 1001, et seq., preempts a
California law that creates a state-managed individual
retirement account (IRA) program. The program,
CalSavers, applies to eligible employees of certain private employers in California that do not provide their
employees with a tax-qualified retirement savings
plan. Eligible employees are automatically enrolled
in CalSavers, but may opt out. If they do not, their employer must remit certain payroll deductions to
CalSavers, which funds the employees’ IRAs. California manages and administers the IRAs and acts as the
program fiduciary. Citing a need to encourage greater
savings among future retirees, other States have enacted similar state-managed IRA programs in recent
years. To our knowledge, this is the first case challenging such a program on ERISA preemption grounds.
We hold that the preemption challenge fails.
CalSavers is not an ERISA plan because it is established and maintained by the State, not employers; it
does not require employers to operate their own ERISA
plans; and it does not have an impermissible reference
to or connection with ERISA. Nor does CalSavers

App. 5
interfere with ERISA’s core purposes. ERISA thus does
not preclude California’s endeavor to encourage personal retirement savings by requiring employers who
do not offer retirement plans to participate in CalSavers. We therefore affirm the judgment of the district
court.
I
A
In 2017, the California Legislature enacted the
CalSavers Retirement Savings Trust Act, which implemented the CalSavers program (previously known as
“California Secure Choice”). See Cal. Gov’t Code
§ 100000, et seq. CalSavers is a state-run IRA savings
program for certain private employees. See id. §§ 100002,
100004, 100008. Its objective is to encourage greater
retirement savings among employees whose employers
do not offer retirement plans. See Savings Arrangements Established by States for Non-Governmental
Employees, 81 Fed. Reg. 59464, 59464–65 (Aug. 30,
2016) (describing how California and other states have
enacted “automatic enrollment” programs to “encourage employees to establish tax-favored IRAs funded by
payroll deductions”).
CalSavers’s automatic enrollment requirement
applies only to an “Eligible employee” of an “Eligible
employer.” Cal. Gov’t Code §§ 100000(c)–(d), 100032.
Eligible employees are defined as California employees
who are at least eighteen years old and employed by
an eligible employer. Id. § 100000(c); Cal. Code Regs.

App. 6
tit. 10, § 10000(l), (n). Eligible employers are defined as
non-governmental employers with five or more employees in California. Cal. Gov’t Code § 100000(d); Cal.
Code Regs. tit. 10, § 10000(m). The sole exclusion is
for an “Exempt Employer,” Cal. Code Regs. tit. 10,
§ 10000(q), that provides either an “employer-sponsored
retirement plan” or an “automatic enrollment payroll
deduction IRA” that “qualifies for favorable federal income tax treatment.” Cal. Gov’t Code § 100032(g)(1).
Compliance with CalSavers is mandatory for nonexempt eligible employers, who must register with the
CalSavers program. Id. § 100032(b)–(d); Cal. Code
Regs. tit. 10, § 10002. Exempt employers may, but are
not required to, inform the CalSavers Administrator of
their exemption. Cal. Code Regs. tit. 10, § 10001(d). Eligible employers who later become ineligible (for example, those who later create their own ERISA plans)
must inform the CalSavers Administrator within 30
days of their change in status. Id. § 10001(c). Exempt
employers are “prohibited from participating in the
Program.” Id. § 10002(d).
CalSavers describes itself as “a state-administered program, not an employer-sponsored program.”
Cal. Gov’t Code § 100034(b). To that end, CalSavers
forbids employers from taking a variety of actions. Employers may not “[r]equire, endorse, encourage, prohibit, restrict, or discourage employee participation in”
CalSavers. Cal. Code Regs. tit. 10, § 10003(d)(1). Nor
may employers advise employees regarding CalSavers
contribution rates or investment decisions or “[e]xercise any authority, control, or responsibility regarding”

App. 7
the program. Id. § 10003(d)(2), (4). Employers “are
prohibited from contributing to a Participating Employee’s Account.” Id. § 10005(c)(1). Employers also
“shall not have any liability for an employee’s decision
to participate in, or opt out of, the program”; “shall not
be a fiduciary, or considered to be a fiduciary over the
trust or the program”; “shall not be liable as plan sponsors”; and “shall not bear responsibility for the administration, investment, or investment performance of
the program.” Cal. Gov’t Code § 100034(a), (b).
Anticipating the legal challenge we address here,
the statute creating CalSavers maintains that “the
roles and responsibilities of employers” have been defined “in a manner to keep the program from being
classified as an employee benefit plan subject to the
federal Employee Retirement Income Security Act
[(ERISA)].” Cal. Gov’t Code § 100043(b)(1)(C). CalSavers imposes three basic duties on eligible employers.
They must first register for CalSavers by providing
their basic identification and contact information. Cal.
Code Regs. tit. 10, § 10002(f ). Within thirty days of registration, they must provide CalSavers with certain
contact and identifying information for their eligible
employees. Id. § 10003(a). They must also set up “a
payroll deposit retirement savings arrangement,” Cal.
Gov’t Code § 100032(b), through which they can remit
employees’ contributions to the CalSavers Trust. Cal.
Code Regs. tit. 10, § 10003(c). Regulations set a 5% default rate of contribution, though employees may adjust their rate. Id. § 10005(a)(1), (b)(1). An eligible
employer that “fails to allow its eligible employees to

App. 8
participate” in CalSavers is subject to penalties. Cal.
Gov’t Code § 100033(b).
After an eligible employer registers with CalSavers, the CalSavers Administrator delivers to all eligible
employees an information packet describing the program. Cal. Code Regs. tit. 10, § 10004(a). Upon receiving the information packet, employees have thirty days
to opt out; otherwise, they are automatically enrolled
in CalSavers. Id. § 10004(b). Employees may opt out
electronically, by telephone, or by mail. Id. § 10004(d);
see also Cal. Gov’t Code § 100032(f )(1). Even after enrollment, employees may opt out of CalSavers at any
time. Cal. Code Regs. tit. 10, § 10004(d). Employees’
contributions are made to a Roth IRA, id. § 10005(a)(3),
but employees may choose to recharacterize all or
some of their contributions to a traditional IRA, id.
§ 10005(c)(4). They may roll over or transfer funds into
their CalSavers IRA at any time. Id. § 10007(b).1
The statute and regulations also describe how eligible employers can become ineligible for CalSavers,
and how employees can make changes to their CalSavers accounts. For example, if an eligible employer later
adopts its own “employer-sponsored retirement plan”
or qualifying “automatic enrollment payroll deduction
IRA,” CalSavers no longer applies. Cal. Gov’t Code
§ 100032(g)(1)–(2). Eligible employees are also given
guidance on how they may withdraw their CalSavers

1

We grant California’s request for judicial notice of background materials on the CalSavers website.

App. 9
contributions. See id. § 100014(b)(4). Any individual
who is over eighteen can also choose to participate in
CalSavers “outside of an employment relationship
with an Eligible Employer.” Cal. Code Regs. tit. 10,
§ 10006(a).
The Act that implemented CalSavers also created
a nine-member California Secure Choice Retirement
Savings Board, a public body “within state government,” that is charged with managing and administering the CalSavers Retirement Savings Trust. Cal.
Gov’t Code §§ 100002, 100004. The Board is authorized
to fund the Trust with the contributions received from
employers through employee payroll deductions, invest the Trust funds (or delegate investment to private
money managers), and pay operating costs using Trust
funds. See id. § 100004.
California is phasing in CalSavers according to
the size of an employer’s workforce. Id. § 100032(b)–
(d); Cal. Code Regs. tit. 10, § 10002(a)(1)–(3). As of
October 12, 2020, California reports that 4,324 employers had registered for CalSavers and nearly 90,000
California workers had enrolled. Approximately 36% of
eligible employees have opted out.
Several other states and the City of Seattle have
adopted government-run auto-enrollment IRA programs like CalSavers. See Colorado Secure Savings
Program Act, Colo. Rev. Stat. Ann. §§ 24-54.3-101, et
seq.; Connecticut Retirement Security Exchange,
Conn. Gen. Stat. Ann. §§ 31-418, et seq.; Illinois Secure
Choice Savings Program Act, 820 Ill. Comp. Stat. Ann.

App. 10
§§ 80/1, et seq.; Maryland Small Business Retirement
Savings Program, Md. Code Ann., Lab. & Empl. §§ 12401, et seq.; New Jersey Secure Choice Savings Program Act, N.J. Stat. Ann. §§ 43:23-13, et seq.; Oregon
Retirement Savings Plan, Or. Rev. Stat. Ann.
§§ 178.200, et seq.; Seattle Retirement Savings Plan,
Seattle Mun. Code §§ 14.36.010, et seq.; see also 81 Fed.
Reg. at 59464–65 (describing programs in different
states); State-Facilitated Retirement Savings Programs: A Snapshot of Program Design Features, State
Brief 20-02, Georgetown Univ. (Aug. 31, 2020),
https://cri.georgetown.edu/wp-content/uploads/2018/12/
CRI-State-Brief-20-02.pdf (last accessed Apr. 1, 2021).
B
Howard Jarvis Taxpayers Association and two of
its employees (collectively, “HJTA”) filed this action
against the CalSavers program and the Chairman of
the CalSavers Board in his official capacity. HJTA alleged that ERISA preempts CalSavers and that
CalSavers should also be enjoined under California
Code of Civil Procedure Section 526a as a waste of taxpayer funds.
HJTA is a public interest organization that seeks
to promote taxpayer rights. But it filed this challenge
in its capacity as a California employer. HJTA alleged
that it meets the definition of an eligible employer and
does not operate its own employee retirement program.
HJTA therefore has standing to bring this action, and
the controversy is ripe because HJTA plausibly alleges

App. 11
that it will soon be subject to CalSavers. See, e.g.,
Leeson v. Transam. Disability Income Plan, 671 F.3d
969, 978–79 (9th Cir. 2012); Inland Empire Chapter of
Associated Gen. Contractors of Am. v. Dear, 77 F.3d 296,
299 (9th Cir. 1996). The HJTA employees also have
standing as future participants in what they claim is
an ERISA plan. See 29 U.S.C. § 1132(a)(3); Leeson, 671
F.3d at 978–79.
The district court granted California’s motion to
dismiss, concluding that ERISA does not preempt
CalSavers. The district court also declined to exercise
supplemental jurisdiction over HJTA’s state law claim.
HJTA timely appealed to this Court, and we review the
district court’s ruling on preemption de novo. HickcoxHuffman v. US Airways, Inc., 855 F.3d 1057, 1060 (9th
Cir. 2017).2
II
ERISA preempts “any and all State laws insofar
as they may now or hereafter relate to any employee
benefit plan” that ERISA covers. 29 U.S.C. § 1144(a). Is
CalSavers such a law? No court has yet addressed
whether a state-administered IRA program like
CalSavers falls within ERISA’s ambit. The issue
2

After supporting HJTA in the district court, the Department of Labor (DOL) initially filed an amicus brief supporting
HJTA on appeal. Later, and after a change in presidential administrations, DOL informed us that it no longer wished to participate as amicus and does not support either side. Several
organizations and the States of Oregon and Illinois have filed
amicus briefs supporting California.

App. 12
initially seems close because ERISA’s preemption provision is expansive, and CalSavers concerns benefits in
a general sense. But closer inspection of the governing
precedents and CalSavers’ design shows that HJTA’s
broad ERISA preemption challenge to CalSavers cannot be sustained.
A
We first address a threshold question relating to
whether Congress has already resolved this issue
when it rejected a 2016 Department of Labor rule that
sought to exempt CalSavers from ERISA under a safe
harbor. We hold that Congress’s repeal of that rule does
not provide an answer to the preemption question.
DOL has issued regulations exempting certain
types of plans from ERISA. See 29 U.S.C. § 1135 (authorizing the Secretary of Labor to “prescribe such regulations as he finds necessary or appropriate to carry
out the provisions of this subchapter”); 29 C.F.R.
§§ 2510.3-1(j), 2510.3-2(b), (d); see generally Sgro v.
Danone Waters of N. Am., Inc., 532 F.3d 940, 942 (9th
Cir. 2008); Stuart v. UNUM Life Ins. Co. of Am., 217
F.3d 1145, 1149 (9th Cir. 2000). If a plan or program is
exempt from ERISA under a safe harbor, there is no
need to determine whether ERISA preempts the law
authorizing it.
In 1975, DOL promulgated a regulation exempting certain IRA payroll deduction programs from
ERISA. See 29 C.F.R. § 2510.3-2(d). For an IRA program to qualify for the 1975 Safe Harbor, it must meet

App. 13
four criteria: (i) “[n]o contributions are made by the
employer”; (ii) “[p]articipation is completely voluntary
for employees”; (iii) the employer’s “sole involvement”
is “without endorsement to permit the sponsor to publicize the program to employees or members, to collect
contributions through payroll deductions,” and “to remit them to the sponsor”; and (iv) the employer receives “no consideration . . . other than reasonable
compensation” for the cost of completing payroll deductions. Id. (emphasis added).
DOL has taken the position that the “completely
voluntary” requirement in the 1975 Safe Harbor
“mean[s] that the employee’s enrollment in the program must be self-initiated,” i.e., that “the decision to
enroll in the program must be made by the employee,
not the employer.” 81 Fed. Reg. at 59465. We have also
held that when benefit coverage is “automatic for all
[eligible] employees,” “it [i]s not ‘completely voluntary’ ”
under the 1975 Safe Harbor. Qualls ex rel. Qualls v.
Blue Cross of Cal., Inc., 22 F.3d 839, 844 (9th Cir. 1994).
In a 2016 rulemaking, DOL concluded that staterun IRA programs like CalSavers, which require automatic participant enrollment with “opt-out” rights,
were not “completely voluntary” and thus did not fall
within the 1975 Safe Harbor. 81 Fed. Reg. at 59465.
But DOL at the same time recognized that “states
have a substantial government interest to encourage
retirement savings in order to protect the economic
security of their residents.” Id. at 59464. The question
remained, however, whether ERISA would preempt
CalSavers and other like programs. DOL took no

App. 14
position on that question in its 2016 rulemaking. See
id. at 59467 (“The safe harbors in this section should
not be read as implicitly indicating the Department’s
views on the possible scope of [29 U.S.C. § 1144(a)].”).
But DOL recognized that “uncertainty” over ERISA
preemption “has created a serious impediment to
wider adoption of state payroll deduction savings programs.” Id. at 59465.
To “remove [that] uncertainty” and promote staterun IRA programs, DOL in 2016 added a new safe harbor exemption, entitled “Savings Arrangements Established by States for Non-Governmental Employees.” 81
Fed. Reg. 59464; see also 29 C.F.R. § 2510.3-2(h) (2016).
The 2016 Safe Harbor was intended to ensure that
state-run IRA programs, including CalSavers, would
be treated as outside ERISA. See 81 Fed. Reg. 59466.
For a program to qualify for the 2016 Safe Harbor, employee participation need only be “voluntary” (as opposed to “completely voluntary”), and the state had to
assume fiduciary and administrative responsibility. Id.
But the 2016 Safe Harbor was short-lived. Less than a
year after its enactment, Congress repealed it by joint
resolution under the Congressional Review Act. Pub.
L. No. 115-35, 131 Stat. 848 (2017).
HJTA thus argues that Congress “specifically disavowed CalSavers by expressly repealing the 2016
DOL regulation that was designed to authorize
CalSavers itself.” We think, however, that this argument reads too much into Congress’s rejection of the
2016 Safe Harbor. As we explained above, DOL in 2016
did not take the position that state IRA programs were

App. 15
preempted under ERISA absent an exemption. It
merely sought to “remove uncertainty” about that
question, so that states could avoid the costs and delay
of ERISA preemption litigation (like this one). 81 Fed.
Reg. at 59466.
We can at most conclude from Congress’s repeal of
the 2016 regulation that Congress rejected the notion
that CalSavers should be automatically exempt from
an ERISA preemption analysis. Nothing about the repeal forecasts any answer, much less any definitive answer, on whether ERISA preempts programs like
CalSavers. That issue was left to the courts to resolve.
And that means we must address the ERISA preemption question that the 2016 Safe Harbor might have
obviated or made easier.
There is one more preliminary item before we do
so, however. Assuming for a moment that CalSavers
does not fall within the 1975 Safe Harbor because it is
not “completely voluntary,” does that mean CalSavers
is then covered by ERISA and preempted? In prior
cases, we have made statements such as the following:
“Unless all four of the [1975 Safe Harbor] requirements are met, the employer’s involvement in a group
insurance plan is significant enough to constitute an
‘employee benefit plan’ subject to ERISA.” Qualls, 22
F.3d at 843; see also, e.g., Sarraf v. Standard Ins. Co.,
102 F.3d 991, 993 (9th Cir. 1996) (“Because [the employee organization] is not exempted by the regulation,
its involvement in the plan is significant enough to
make the plan an ‘employee benefit plan’ subject to
ERISA.”); Pacificare Inc. v. Martin, 34 F.3d 834, 837

App. 16
(9th Cir. 1994) (“A plan failing to meet any one of these
[safe harbor] criteria cannot be excluded from ERISA
coverage.”). Do these statements mean that if a plan
fails to meet the 1975 Safe Harbor, it is then an ERISA
plan that ERISA preempts?
The answer is no. In Stuart v. UNUM Life Insurance Co. of America, 217 F.3d 1145 (9th Cir. 2000), we
clarified that while “[a] program that satisfies the [safe
harbor] regulation’s standards will be deemed not to
have been ‘established or maintained’ by the employer[,] [t]he converse, however, is not necessarily
true; a program that fails to satisfy the regulation’s
standards is not automatically deemed to have been
‘established or maintained’ by the employer, but, rather, is subject to further evaluation under the conventional tests.” Id. at 1153 n.4 (quoting Johnson v. Watts
Regulator Co., 63 F.3d 1129, 1133 (1st Cir. 1995)). In
other words, “[t]he fact that [a] plan is not excluded
from ERISA coverage by this regulation does not compel the conclusion that the plan is an ERISA plan.” Id.
(quoting Gaylor v. John Hancock Mut. Life Ins. Co., 112
F.3d 460, 463 (10th Cir. 1997)); see also Cline v. Indus.
Maint. Eng’g & Contracting Co., 200 F.3d 1223, 1230
(9th Cir. 2000) (considering the safe harbor criteria
only after determining that the plan at issue fell
“within the definition of ” an ERISA plan).
This means that even if the 1975 Safe Harbor does
not apply to CalSavers, we would still need to find that
CalSavers “otherwise qualifies as an ERISA program,”
Johnson, 63 F.3d at 1133, or “relate[s] to” ERISA, 29
U.S.C. § 1144(a), to conclude that ERISA preempts it.

App. 17
We therefore need not decide whether the 1975 Safe
Harbor would exempt CalSavers from ERISA because
we hold that CalSavers is not an ERISA plan in the first
place. Nor does it “relate to” ERISA plans by imposing
administrative obligations on employers in California
that, like HJTA, do not offer employer-sponsored retirement plans. We now turn to an explanation of these
points.
B
ERISA’s preemption provision applies to “any and
all State laws insofar as they may now or hereafter
relate to any employee benefit plan,” as defined in
ERISA. 29 U.S.C. § 1144(a). While the preemption provision is “clearly expansive,” the Supreme Court has
cautioned that its “relate to” language cannot be read
“to extend to the furthest stretch of indeterminacy,” because it would then lack any limiting principle at all.
N.Y. State Conf. of Blue Cross & Blue Shield Plans v.
Travelers Ins. Co., 514 U.S. 645, 655 (1995).
States are not precluded from adopting a law just
because it has something to do with “benefits” in a
loose sense, no matter how detached the law is from
ERISA’s text and recognized objectives. To have “workable standards” and avoid near constant preemption
(“a result [that] no sensible person could have intended”), the Supreme Court has therefore rejected
“ ‘uncritical literalism’ in applying [ERISA’s preemption] clause.” Gobeille v. Liberty Mut. Ins. Co., 577 U.S.
312, 319 (2016) (quotations omitted).

App. 18
ERISA applies to “plans, rather than simply to
benefits.” Fort Halifax Packing Co. v. Coyne, 482 U.S. 1,
11 (1987). That demarcation forms the basis for the Supreme Court’s cases distinguishing state laws that fall
within ERISA’s preemptive reach from those that are
beyond it. To this end, the Court has identified “two
categories of state laws that ERISA pre-empts.” Id.
“First, ERISA pre-empts a state law if it has a ‘reference to’ ERISA plans.” Id. (citing Travelers, 514 U.S. at
656). “Second, ERISA pre-empts a state law that has
an impermissible ‘connection with’ ERISA plans,
meaning a state law that ‘governs . . . a central matter
of plan administration’ or ‘interferes with nationally
uniform plan administration.’ ” Id. (quoting Egelhoff v.
Egelhoff, 532 U.S. 141, 148 (2001)). HJTA has not
shown that either test is satisfied.
1
If CalSavers “creates an ERISA plan,” then it “almost certainly makes an impermissible ‘reference to’
an ERISA plan.” Golden Gate Rest. Ass’n v. City & Cty.
of San Francisco, 546 F.3d 639, 648 (9th Cir. 2008). But
CalSavers does not order anyone to create an ERISA
“employee benefit plan,” as ERISA defines that term
and as precedent elucidates that concept.
ERISA’s preemption provision precludes state
laws that “relate to any employee benefit plan.” 29
U.S.C. § 1144(a). An “employee benefit plan” means
either an “employee welfare benefit plan” or an “employee pension benefit plan.” Id. § 1002(3). “Employee

App. 19
pension benefit plan” is the type of plan potentially relevant to CalSavers. ERISA defines such a plan as “any
plan, fund, or program which was heretofore or is hereafter established or maintained by an employer or by
an employee organization, or by both, to the extent
that by its express terms or as a result of surrounding
circumstances[,] such plan, fund, or program” provides
retirement income or results in deferral income by employees. Id. § 1002(2)(A) (emphasis added).
HJTA contends that CalSavers is an ERISA plan
because it satisfies the four-factor test in Donovan v.
Dillingham, 688 F.2d 1367 (11th Cir. 1982). Under the
Donovan test, an ERISA plan is established “if from
the surrounding circumstances a reasonable person
can ascertain [1] the intended benefits, [2] a class of
beneficiaries, [3] the source of financing, and [4] procedures for receiving benefits.” Id. at 1373.
We have used the Donovan factors as a benchmark
for assessing whether a de facto plan is an ERISA plan.
See, e.g., Winterrowd v. Am. Gen. Annuity Ins. Co., 321
F.3d 933, 939 (9th Cir. 2003); Modzelewski v. Resolution
Tr. Corp., 14 F.3d 1374, 1376 (9th Cir. 1994); but see
Golden Gate, 546 F.3d at 652 (questioning whether the
Donovan factors are compatible with later Supreme
Court precedent on whether an informal policy is an
ERISA plan). But we have never suggested that the
Donovan factors are the “be all and end all” for whether
an arrangement is an ERISA plan. That is because the
Donovan factors presume the existence of a threshold
requirement for ERISA plans: that they be “established or maintained by an employer.”

App. 20
As we explained in Golden Gate, “satisfying the
Donovan criteria was a necessary but not sufficient
condition for the creation of an ERISA plan.” 546 F.3d
at 652. Donovan is concerned with ascertaining
whether a de facto plan is an ERISA plan, once an
employer decides to provide ERISA-type benefits to its
employees. See id. (noting that Donovan and its progeny “all involve some type of unwritten or informal
promise made by an employer to its employees”). But
Donovan itself made clear that its criteria only come
into play when “an employer or employee organization
is the person that establishes or maintains the plan,
fund, or program.” 688 F.2d at 1371 (emphasis added).
The issue here is thus not whether, had an employer set up an IRA program on its own, that program
would be subject to ERISA. That assumes away the
central question in this appeal, which is whether a
state-run IRA program like CalSavers is “established
or maintained by an employer.” The answer to that
question is “no.”
2
The ERISA-required “employer” that supposedly
“established or maintained” CalSavers could only be
one of two entities. The first, of course, is the State. But
it seems quite clear that although California “established or maintained” CalSavers, it did not do so in
the capacity of an “employer.” The “established or
maintained” requirement, we have explained, “appears
designed to ensure that the plan is part of an

App. 21
employment relationship.” Charles Schwab & Co. v.
Debickero, 593 F.3d 916, 921 (9th Cir. 2010) (quoting
Peckham v. Gem State Mut. of Utah, 964 F.2d 1043,
1049 (10th Cir. 1992)). And ERISA defines “employer”
as “any person acting directly as an employer, or indirectly in the interest of an employer, in relation to an
employee benefit plan.” 29 U.S.C. § 1002(5). California
does not employ CalSavers participants, who are by
definition not governmental employees. Cal. Gov’t
Code § 100000(c)(1), (d). California is thus not “acting
directly as an employer” through CalSavers or the
CalSavers Trust.
Nor is California acting “indirectly in the interest
of an employer” through CalSavers. 29 U.S.C.
§ 1002(5). CalSavers does not purport to provide ready
access to IRAs on behalf of California employers. See
Bleiler v. Cristwood Constr., Inc., 72 F.3d 13, 15 (2d Cir.
1995) (explaining that “indirectly” requires “some type
of agency or ownership relationship or an assumption
of the employer’s functions with regard to the administration of an ERISA plan”); Greenblatt v. Delta
Plumbing & Heating Corp., 68 F.3d 561, 575 (2d Cir.
1995) (“It is clear that the ‘in the interest of ’ language
encompasses those who act for an employer or directly
assume the employer’s duty to make plan contributions.”). Nor, by its design, does CalSavers represent
employers in any relevant sense. CalSavers instead
steps in where the State regards eligible California
employers as having failed to provide their workers
with desirable retirement savings options.

App. 22
We have previously held that “a trust was not an
ERISA plan because it recruited ‘heterogeneous, unrelated employers.’ ” Moideen v. Gillespie, 55 F.3d 1478,
1481 (9th Cir. 1995) (quoting Credit Managers Ass’n of
S. Cal. v. Kennesaw Life & Acc. Ins. Co., 809 F.2d 617,
625 (9th Cir. 1987)). The employers who are subject to
CalSavers are heterogeneous and unrelated, and California has not “recruited” them at all. Indeed, employers have no say over how CalSavers is operated; they
did not create it, nor do they control it.3
If California is not the ERISA “employer,” the only
other entities who could fit that bill are those eligible
employers who are subject to CalSavers. These entities
are, of course, “employers.” HJTA argues that CalSavers effectively requires these employers to “establish or
maintain” ERISA plans by conscripting them into participating in CalSavers and imposing certain obligations on them. But this argument is faithful neither to
CalSavers’ operation nor ERISA.
There is scant case law on when an employer’s required participation in a government-mandated, government-run benefits program nonetheless leads to
the employer “establishing or maintaining” an ERISA
3

HJTA’s reliance on Kanne v. Connecticut Gen. Life Ins. Co.,
867 F.2d 489 (9th Cir. 1988) (per curiam), is therefore unavailing.
In Kanne, construction employers created an association to administer a health plan for their employees. Id. at 491. We held
that the association qualified as an ERISA “employer,” which “includes a group or association of employers acting for an employer
in such capacity.” Id. at 493 (quoting 29 U.S.C. § 1002(5)) (emphasis removed). CalSavers is not “acting for” eligible employers, nor
is it a “group or association of employers.”

App. 23
plan. But the “establishment” of an ERISA plan requires both a “decision to extend benefits” and some
“[a]cts or events that record, exemplify or implement
the decision,” such as “financing or arranging to finance or fund the intended benefits” or “establishing a
procedure for disbursing benefits.” Donovan, 688 F.2d
at 1373; see also, e.g., Cinelli v. Sec. Pac. Corp., 61 F.3d
1437, 1442 (9th Cir. 1995). Addressing another provision of ERISA that involves “maintain[ing]” a plan,
courts have relied on dictionary definitions to explain
that “maintain” means to “care[ ] for the plan for purposes of operational productivity.” Medina v. Catholic
Health Initiatives, 877 F.3d 1213, 1226 (10th Cir.
2017); see also Sanzone v. Mercy Health, 954 F.3d 1031,
1041–42 (8th Cir. 2020) (similar).
The closest precedent we have to the present case
is Golden Gate Restaurant Association v. City & County
of San Francisco, 546 F.3d 639 (9th Cir. 2008). Golden
Gate involved a city ordinance that created a city-run
“Health Access Plan” (HAP) for low-income residents
to obtain health coverage. Id. at 642–43. Under the
HAP, employers were required to spend a certain
amount on healthcare each quarter, either by making
payments into their own employee health plans or
by making a payment directly to the city (the “Citypayment option”). Id. at 643–46. Eligible employees
could then enroll in the HAP and would be eligible for
city-managed medical reimbursement accounts. Id. at
645.
We held that the City-payment option did not create an ERISA plan. Id. at 648–52. While employers

App. 24
were required to comply with certain “administrative
obligations” under the HAP—such as tracking employee hours, maintaining certain records, and the
like—“[t]his burden [wa]s not enough, in itself, to make
the payment obligation an ERISA plan.” Id. at 650. We
explained that in the context of a government-sponsored benefit in which an employer has mandatory
back-end responsibilities, “an employer’s administrative duties must involve the application of more than a
modicum of discretion in order for those administrative duties to amount to an ERISA plan.” Id.
Because the employer could “make no promises to
its employees with regard to the HAP or its coverage”
and the city was not “act[ing] as the employer’s agent
entrusted to fulfill the benefits promises the employer
made to its employees,” we concluded in Golden Gate
that the “the City, rather than the employer, establishes and maintains the HAP.” Id. at 654. Consistent
with case law interpreting “establish” and “maintain,”
Golden Gate stands for the proposition that an employer’s non-discretionary administrative obligations
under a government-mandated benefit program do not,
without more, “run the risk of mismanagement of
funds or other abuse” by employers, which is ERISA’s
focus. Id. at 651.
Golden Gate’s holding was informed by ERISA’s
basic objectives, which serve as a “guide to the scope of
the state law that Congress understood would survive”
ERISA’s preemption provision. Gobeille, 577 U.S. at
320 (quoting Cal. Div. of Lab. Standards Enf ’t v. Dillingham Constr., N.A., Inc., 519 U.S. 316, 325 (1997)).

App. 25
ERISA “seeks to make the benefits promised by an
employer more secure by mandating certain oversight
systems and other standard procedures.” Id. at 320–21;
see also Fort Halifax, 482 U.S. at 16 (“Only ‘plans’ involve administrative activity potentially subject to employer abuse.”). When employers merely perform
mandatory administrative functions in a government
benefits scheme that do not require the employer to exercise “more than a modicum of discretion,” Golden
Gate, 546 F.3d at 650, the employer does not “establish
or maintain” an ERISA “plan” because the employer is
not engaging in the type of conduct that ERISA seeks
to regulate.
Applying these principles, we conclude that in
every relevant sense, it is the State that has established CalSavers and the State that maintains it—and
not eligible employers. California created CalSavers.
California determines the eligibility for both employers and employees. Cal. Code Regs. tit. 10, § 10000(l)–
(n). California enrolls eligible employees. Id. § 10004.
Individuals can elect to participate in CalSavers outside of the employment relationship by enrolling and
making contributions via electronic funds transfer or
personal check. See Cal. Code Regs. tit. 10, § 10006.
California acts as the sole fiduciary over the trust and
program, with the Board making all investment decisions (or delegating investment strategy to private
managers). Cal. Gov’t Code §§ 100002(d)–(e), 100004,
100034. And California is “free to change the kind and
level of benefits as it sees fit.” Golden Gate, 546 F.3d at
654. All of this confirms that “the [State], rather than

App. 26
the employer, establishes and maintains” CalSavers.
Id.
That CalSavers imposes certain administrative duties on eligible employers does not mean that eligible
employers complying with those obligations “establish
or maintain” ERISA plans. The role for eligible employers is limited to registering for the program; evaluating
employee eligibility according to non-discretionary criteria; providing the State with employee identification
and contact information; and processing specified payroll deductions according to set formulae. Cal. Code
Regs. tit. 10, §§ 10002, 10003(a)–(c). The types of determinations employers must make under CalSavers are
essentially mechanical, such as which of their employees are eighteen or older, how many people they employ, and so on. See id. §§ 10000(l)–(m), 10001, 10002.
It is of course true that if the State mandated that
private employers provide certain retirement benefits
to their employees, this would violate ERISA. See Fort
Halifax, 482 U.S. at 16 (agreeing that requiring employers to create benefit plans “would permit States to
circumvent ERISA’s pre-emption provision, by allowing them to require directly what they are forbidden to
regulate”). The considerations would also likely be different if employers were making discretionary judgments within a state-mandated benefits scheme.
But California has not done anything like this in
CalSavers. HJTA cites no authority suggesting that
the non-discretionary administrative involvement that
CalSavers requires of employers is enough to mean the

App. 27
employers have thereby “established or maintained”
ERISA plans. As we explained in Golden Gate, “[m]any
federal, state and local laws, such as income tax withholding, social security, and minimum wage laws, impose similar administrative obligations on employers;
yet none of these obligations constitutes an ERISA
plan.” 546 F.3d at 650.
In suggesting that employers have a more substantive role in CalSavers, HJTA misstates the statutory scheme. HJTA claims, for example, that under
CalSavers “the employer is managing the employee’s
money.” But it is the CalSavers Board that does this.
Cal. Gov’t Code §§ 100002(d)–(f ), 100010. And employers are prohibited from “[e]xercis[ing] any authority,
control, or responsibility regarding the Program,” except for specifically identified administrative duties.
Cal. Code Regs. tit. 10, § 10003(d)(4).
HJTA also asserts that under CalSavers, employers are “obligated” to provide their employees with
“guidance and opinions” and are “mandated to endorse
CalSavers.” But again, CalSavers in fact disallows
this. Under CalSavers, eligible employers “shall not”
“[r]equire, endorse, encourage, prohibit, restrict, or discourage employee participation in the Program.” Id.
§ 10003(d)(1). Nor may they “[p]rovide Participating
Employees . . . advice or direction regarding investment choices, Contribution Rates, participation in
Automatic Escalation, or any other decision about the
Program.” Id. § 10003(d)(2). The CalSavers scheme
does not give employers the expansive, discretionary
role that HJTA suggests. Cf. Simas v. Quaker Fabric

App. 28
Corp. of Fall River, 6 F.3d 849, 853 (1st Cir. 1993) (holding that ERISA preempted state law that required employers to make eligibility determinations “likely to
provoke controversy and call for judgments based on
information well beyond the employee’s date of hiring
and termination”). While some employers may find
CalSavers irritating or even burdensome, that does
not make their involvement in CalSavers tantamount
to establishing or maintaining an ERISA plan. See
Golden Gate, 546 F.3d at 650.4
Finally, HJTA errs in claiming that CalSavers forces
employers to create ERISA plans because it is the
employer’s initial decision not to offer a tax-qualified
retirement savings program that then requires it to
comply with CalSavers. While HJTA’s lack of a retirement plan made it subject to CalSavers, it does not follow that HJTA thereby “established or maintained” an
ERISA plan. That a regulated entity is complying with
a mandatory state scheme does not mean the entity
“establishes or maintains” the program established by
that scheme. In no sense does an eligible employer
“establish or maintain” an ERISA plan through its
4

HJTA argues that small employers subject to CalSavers
may inadvertently establish ERISA plans if they drop below five
employees. This argument is not persuasive. There is no basis for
HJTA’s claim that it will be “tricky” for employers to know
whether they have fewer than five employees. See Cal. Code Regs.
tit. 10, § 10001(a) (method of calculating number of employees).
And if an employer’s average number of employees falls below five
for a calendar year, that does not mean its compliance with
CalSavers then produces an ERISA plan; it merely means the
employer is no longer subject to CalSavers. See id. § 10001(b).

App. 29
decision not to establish such a plan, which is what
triggers CalSavers’ application.
3
Having concluded CalSavers is not an ERISA plan
and does not require employers to establish or maintain one, we now turn to whether CalSavers otherwise
“relates to” ERISA benefit plans because it has a forbidden “reference to” or “connection with” such plans.
Rutledge v. Pharm. Care Mgmt. Ass’n, 141 S. Ct. 474,
479 (2020). We hold that HJTA’s preemption challenge
fails under these tests.
A state law impermissibly “refers to” ERISA “if it
‘acts immediately and exclusively upon ERISA plans
or where the existence of ERISA plans is essential to
the law’s operation.’ ” Id. at 481 (quoting Gobeille, 577
U.S. at 319–20). A state law has an impermissible
“connection with” ERISA if it “governs a central matter of plan administration or interferes with nationally
uniform plan administration,” such as “by requiring
payment of specific benefits or by binding plan administrators to specific rules for determining beneficiary
status.” Id. at 480 (quoting Gobeille, 577 U.S. at 320)
(citations omitted).
HJTA has not shown that CalSavers runs afoul of
ERISA in these ways. CalSavers specifically exempts
those employers that “provide[ ] an employer-sponsored
retirement plan” or “an automatic enrollment payroll
deduction IRA” if “the plan or IRA qualifies for favorable federal income tax treatment under the federal

App. 30
Internal Revenue Code.” Cal. Gov’t Code § 100032(g)(1);
see also Cal. Code Regs. tit. 10, § 10000(q) (including in
the definition of “Exempt Employer” any employer that
“maintains or contributes to a Tax-Qualified Retirement Plan”); id. § 10000(z) (defining “Tax-Qualified
Retirement Plan”). HJTA thus forthrightly acknowledges that employers who provide their employees
with ERISA-governed retirement plans are not subject
to CalSavers.
What this means is that CalSavers does not “act
on ERISA plans at all, let alone immediately and exclusively.” Golden Gate, 546 F.3d at 657. CalSavers
does not regulate ERISA plans or the benefits provided
under them. Employers that offer such plans are not
“force[d] . . . to provide any particular employee benefits or plans, to alter their existing plans, or to even
provide ERISA plans or employee benefits at all.” WSB
Elec., Inc. v. Curry, 88 F.3d 788, 793 (9th Cir. 1996); see
also Golden Gate, 546 F.3d at 655 (holding that the
HAP was not “in connection with” ERISA because it
did not “require any employer to provide specific benefits through an existing ERISA plan or other health
plan”). If an employer has an existing ERISA plan or
later chooses to adopt one, CalSavers has nothing to
say about those plans or their administration. Nothing
in law supports HJTA’s effort to recast ERISA’s
preemption provision as a sword that would allow employers who do not offer their own retirement plans to

App. 31
thereby deprive their employees of the ability to participate in a state-run IRA savings program.5
HJTA maintains that CalSavers nonetheless
“competes with” ERISA plans and will “frustrate, not
encourage the formation of ” ERISA plans. Even if this
were true, it does not matter. The Supreme Court has
been clear that “ERISA does not pre-empt” state laws
that “merely increase costs or alter incentives for
ERISA plans without forcing plans to adopt any particular scheme of substantive coverage.” Rutledge, 141
S. Ct. at 480 (citing Travelers, 514 U.S. at 668). It may
be that CalSavers will incentivize employers to cancel
their existing ERISA plans, lead them to create ERISA
plans to compete with CalSavers, or otherwise influence the benefits employers offer. But these forms of
5

In its since-withdrawn amicus brief, the DOL agreed that
employers with “ERISA-covered retirement plans are exempt
from CalSavers.” But it asserted in a footnote that employers that
offer a non-automatic IRA retirement program may be covered by
ERISA but “may also” be subject to CalSavers, because CalSavers
provides that “[a]n employer-provided payroll deduction IRA program that does not provide for automatic enrollment” is not exempt from CalSavers. We have no occasion to consider this issue
because HJTA does not offer its employees any ERISA-governed
plan at all. We express no opinion on whether ERISA would
preempt CalSavers insofar as it applies to employers with existing ERISA plans, assuming such a circumstance exists. We also
reject as speculative HJTA’s claim that California has set itself
up as an “alternative adjudicator of ERISA compliance” in assessing employer exemption from CalSavers. We do not have before us a dispute between an employer and the State over whether
an employer is exempt from CalSavers. We therefore do not opine
on the preemption implications, if any, that such a situation could
present.

App. 32
“ ‘indirect economic influence’ d[o] not create an impermissible connection between” CalSavers and ERISA
because CalSavers “d[oes] not ‘bind plan administrators to any particular choice.’ ” Id. (quoting Travelers,
514 U.S. at 659).
This leaves HJTA arguing that ERISA preempts
CalSavers because it is “ERISA-regarding,” in that
California law keys eligibility for CalSavers on
whether an employer offers an ERISA plan. But that
argument relies on the very “uncritical literalism” that
the Supreme Court has rejected in interpreting
ERISA’s preemption provision. Gobeille, 577 U.S. at
319.
As we have previously explained, and as remains
true today, “[t]he Supreme Court . . . has never found a
statute to be preempted simply because its text included the word ERISA or explicitly mentioned”
ERISA plans. WSB Elec., Inc., 88 F.3d at 793; see also
Hattem v. Schwarzenegger, 449 F.3d 423, 432 (2d Cir.
2006); NYS Health Maint. Org. Conf. v. Curiale, 64 F.3d
794, 800 (2d Cir. 1995). Although the Supreme Court
has held that ERISA preempted state statutes when
they “expressly refer[red] to ERISA plans,” these state
laws “also had some effect on those plans.” WSB Elec.,
Inc., 88 F.3d at 793. Because CalSavers does not act on
ERISA plans or ERISA benefits, we do not see how
CalSavers’ explicit effort to wall off ERISA plans from
its ambit could somehow turn out to be the very feature
that leads to preemption. Nothing in principle or precedent supports such a strange result.

App. 33
Mackey v. Lanier Collection Agency & Service, Inc.,
486 U.S. 825 (1988), on which HJTA relies, is not to the
contrary. In Mackey, the Supreme Court held that
ERISA preempted a Georgia law that specifically exempted ERISA benefits from state garnishment procedures. Id. at 828–29. But the law in Mackey did more
than just expressly refer to ERISA plans: it “solely
applie[d]” to ERISA plans and “single[d] out ERISA
employee welfare benefit plans for different treatment.” Id. at 829–30. That is, by exempting ERISA
benefits from what was a generally applicable garnishment scheme that could otherwise apply to ERISA
benefits, see id. at 830, the Georgia exception “act[ed]
immediately and exclusively upon ERISA plans,” Dillingham, 519 U.S. at 325 (describing the state law in
Mackey in these terms).
The effective ERISA reference in the CalSavers
exemption, by contrast, confers no such “special treatment” on ERISA benefits because it does not operate
on those benefits at all. Mackey, 486 U.S. at 838 n.12.
Unlike the Georgia garnishment exception in Mackey,
CalSavers was not “specifically designed to affect employee benefit plans.” Id. at 829 (quoting Pilot Life Ins.
Co. v. Dedeaux, 481 U.S. 41, 47–48 (1987)).
CalSavers is instead more akin to the exemption
at issue in Washington Physicians Service Ass’n v.
Gregoire, 147 F.3d 1039 (9th Cir. 1998), as amended on
denial of reh’g and reh’g en banc (Aug. 24, 1998). In
Gregoire, a statute that regulated “health plan[s]” excluded employer-sponsored plans from its ambit. Id. at
1043. We rejected a preemption challenge similar to

App. 34
the one HJTA raises here because the law did not “operate directly” on ERISA plans. Id. at 1044. “In plain
English,” we explained, if the employer were to operate
its own ERISA health benefit plan, “the Act would not
apply at all, and [the employer] could structure its
benefits in any way it chose.” Id. at 1043. The same reasoning follows for CalSavers: if an employer offers its
own retirement plan, CalSavers does not apply. And
CalSavers does not otherwise address how the employer may structure its retirement benefits.
HJTA’s reliance on District of Columbia v. Greater
Washington Board of Trade, 506 U.S. 125 (1992), is also
misplaced. In Greater Washington, the Supreme Court
held that ERISA preempted a District of Columbia law
that required employers who provided health insurance to their employees under an ERISA welfare benefit plan to provide “equivalent” coverage for injured
employees eligible for workers’ compensation, who
were subject to plans exempted from ERISA. Id. at
126–28. In effect, the D.C. law required employers to
extend their ERISA-governed health plans to another
class of claimants. See Curiale, 64 F.3d at 800.
Because the D.C. law in Greater Washington applied only to employers with ERISA-governed plans,
506 U.S. at 130, “the existence of ERISA plans [wa]s
essential to the law’s operation,” Dillingham, 519 U.S.
at 325 (describing Greater Washington). That is not the
case here because CalSavers operates where employers do not offer ERISA retirement plans. Unlike the
D.C. law in Greater Washington, CalSavers “does not
tell employers how to write their ERISA plans.” WSB

App. 35
Elec., Inc., 88 F.3d at 793–94 (quoting Employee Staffing Servs., Inc. v. Aubry, 20 F.3d 1038, 1041 (9th Cir.
1994)). Moreover, while the D.C. law “impose[d] requirements by reference” to ERISA-covered plans,
Greater Washington, 506 U.S. at 130–31, CalSavers ensures that employers with ERISA plans are not subject
to additional requirements. In fact, employers who already offer qualifying plans do not even have to notify
California of their exemption from CalSavers. Cal.
Code Regs. tit. 10, § 10001(d).
Our decision in WSB Electric is instructive here.
In that case, California passed a prevailing wage law,
which required public works contractors to pay a minimum wage to their employees. Id. at 790. To comply,
the contractor had to either pay the entire prevailing
wage in cash or pay a base cash wage and receive credit
for certain benefit contributions. Id. The law expressly
referred to ERISA plans in determining how much
credit the employer could receive for the benefit contributions. Id. at 793. But we rejected the argument that
a reference to ERISA plans, standing alone, meant that
the California wage law was preempted, because “[t]he
references to ERISA plans in the California prevailing
wage law have no effect on any ERISA plans.” Id.
HJTA’s preemption challenge similarly identifies no effect on existing ERISA plans.
Finally, HJTA argues that multi-state employers
will be forced to comply with “differing pension plan
requirements in different states,” contrary to ERISA’s
purpose of ensuring uniform rules for plan administration. But HJTA once again misstates what CalSavers

App. 36
requires. Employers’ own retirement plans remain
subject to one uniform law: ERISA. The ministerial obligations CalSavers imposes on eligible employers do
not resemble the establishment or maintenance of an
ERISA plan. And while HJTA protests that every state
may now enact its own version of CalSavers, subjecting
multi-state employers to many sets of laws, that circumstance is merely a function of our federal system,
little different than the varying state laws in other
areas to which employers are already subject.
There is, to be sure, an important policy debate
here. California steadfastly maintains that CalSavers
is needed to address a serious shortfall in retirement
savings that, if not addressed, will impose significant
costs on the State years down the line. HJTA seemingly believes that state-run IRA programs reflect
too great a role for government in private decisionmaking, while imposing too many costs on employers.
But these are issues for California’s lawmakers and
those who elect them, or for Congress should it choose
to take up this issue. The question for us is whether
Congress has already outlawed CalSavers. For the reasons we have explained, HJTA’s ERISA preemption
challenge fails.
***
The judgment of the district court is therefore
AFFIRMED.

App. 37
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF CALIFORNIA
HOWARD JARVIS
TAXPAYERS ASSOCIATION,
JONATHAN COUPAL, and
DEBRA DESROSIERS,
Plaintiffs,

No. 2:18-cv-01584MCE-KJN
MEMORANDUM
AND ORDER
(Filed Mar. 10, 2020)

v.
THE CALIFORNIA SECURE
CHOICE RETIREMENT SAVINGS PROGRAM and JOHN
CHIANG, in his official capacity
as Chair of the CALIFORNIA
SECURE CHOICES RETIREMENT SAVINGS INVESTMENT BOARD,
Defendants.

The Howard Jarvis Taxpayers Association (“HJTA”)
and individually named HJTA employees Jonathan
Coupal and Debra Desrosiers (“HJTA Employees”)
(collectively, “Plaintiffs”) filed this action against the
California Secure Choice Retirement Savings Program
(“CalSavers” or “the Program”) and California State
Treasurer John Chiang (collectively, “Defendants”) contending that the Employee Retirement Income Security
Act (“ERISA” or “the Act”) preempts the Program.
Plaintiffs’ Complaint was dismissed with leave to
amend. Mem. and Order, ECF No. 24 (“Prior Order”).

App. 38
They subsequently filed the First Amended Complaint
(“FAC”) requesting two forms of relief: first, a declaratory judgment that CalSavers is preempted by ERISA;
and second, an injunction pursuant to California Code
of Civil Procedure § 526a to permanently enjoin spending of taxpayer funds on the Program. Presently before
the Court is Defendants’ second Motion to Dismiss
(“Present Motion”) pursuant to Federal Rules of Civil
Procedure 12(b)(1) and 12(b)(6), contending, in part,
that CalSavers is not an ERISA plan and thus is not
preempted. ECF No. 30.
While Plaintiffs were given an opportunity to
amend their complaint, this matter again coalesces
around the single narrow question addressed in the
Prior Order: does CalSavers, a state-mandated autoenrollment retirement savings program, create an
“employee benefit plan,” such that it is preempted by
ERISA? For the reasons set forth below, this Court
again finds that it does not and therefore GRANTS Defendants’ Motion to Dismiss.1
BACKGROUND2
Congress enacted ERISA in 1974 “to promote the
interests of employees and their beneficiaries in
1

Because oral argument would not have been of material assistance, the Court ordered this matter submitted on the briefs.
E.D. Local Rule 230(g).
2
Except where noted otherwise, the following recitation of
facts is taken from this Court’s Prior Order (ECF No. 24) as well
as the parties’ pleadings on this Motion.

App. 39
employee benefit plans” and to “eliminate the threat of
conflicting or inconsistent State and local regulation of
employee benefit plans.” Operating Eng’rs Health &
Welfare Trust Fund v. JWJ Contracting Co., 135 F.3d
671, 676 (9th Cir. 1998) (quoting Shaw v. Delta Air
Lines, Inc., 463 U.S. 85, 90, 99 (1983)); see also ERISA,
88 Stat. 832, as amended, 29 U.S.C. §§ 1001–1461.
While ERISA does not require employers to provide
any minimum set of benefits to employees, if such
plans are “established or maintained . . . by any employer,” they must conform to various reporting and fiduciary requirements of the Act. N.Y. State Conference
of Blue Cross & Blue Shield Plans v. Travelers Ins. Co.,
514 U.S. 645, 651 (1995). Regarding ERISA’s effect on
State statutes, it “supersede[s] any and all State laws
insofar as they may now or hereafter relate to any employee benefit plan. . . .” 29 U.S.C. § 1144(a).
Defendants contend that in recent years a growing
number of citizens lack sufficient retirement income.
In response, several states began exploring state-run
retirement savings programs. In 2012, the California
Legislature passed the California Secure Choice Retirement Savings Trust Act, which created the CalSavers
program to address the lack of retirement savings for
many of the state’s citizens. Cal. Gov’t Code §§ 100000–
100050. CalSavers creates a State-sponsored retirement
savings plan for California employees who do not have
access to an employer-provided plan. Id. § 100000(b)–
(d). The Program is designed and implemented by the
California Secure Choice Retirement Savings Investment Board (the “Board”) and contributions are placed

App. 40
in the California Secure Choice Retirement Savings
Trust (the “Trust”), which is administered by the
Board. Id. §§ 100002(e), 100004.
The Program requires an “Eligible employer”3 to
“allow employee participation in the [CalSavers] program” via payroll deductions if that employer does
not offer a retirement savings program of its own. Id.
§ 100032(b)–(d). Eligible employers must automatically enroll their employees and remit payroll deductions to the Program “unless the employee elects not to
participate.” Id. § 100032(f )(1). That is, employees of
Eligible employers are automatically enrolled, but can
“opt out” of CalSavers if desired.
Plaintiffs filed their Complaint on May 31, 2018
(ECF No. 1), and Defendants moved to dismiss on July
25, 2018 (“Prior Motion”). ECF No. 9. Subsequently,
this Court granted the Prior Motion, finding that: (1)
the HJTA had standing as an “Eligible employer” but
the HJTA Employees lacked standing as California
taxpayers; (2) the case is ripe for adjudication; (3)
CalSavers is not entitled to the exemptions set forth in
a 1975 regulatory safe harbor (“1975 Safe Harbor”);
and (4) CalSavers is not preempted by ERISA because
3

“Eligible employer” is defined as “a person or entity engaged
in a business, industry, profession, trade, or other enterprise in
the state, whether for profit or not for profit, excluding the federal
government, the state, any county, any municipal corporation, or
any of the state’s units or instrumentalities, that has five or more
employees and that satisfies the requirements to establish or participate in a payroll deposit retirement savings arrangement.” Id.
§ 100000(d)(1).

App. 41
it does not govern a central matter of an ERISA plan’s
administration, nor does it interfere with nationally
uniform plan administration. See generally Prior Order, ECF No. 24.
While this Court granted the Prior Motion with
one final leave to amend, it noted that amendment
would inevitably be futile as CalSavers is not subject
to preemption under ERISA. Plaintiffs nonetheless
filed the FAC on April 11, 2019, alleging similar claims
to those in their original Complaint. ECF No. 25. Subsequently, Defendants moved to dismiss via the Present Motion on May 28, 2019, and this matter has been
fully briefed. ECF Nos. 30, 37, 38. On September 13,
2019, the United States filed a Statement of Interest
opposing Defendants’ Present Motion, and both Plaintiffs and Defendants filed responses. ECF Nos. 43, 47,
48.
STANDARD
A. Rule 12(b)(1)
Federal courts are courts of limited jurisdiction
and are presumptively without jurisdiction over civil
actions. Kokkonen v. Guardian Life Ins. Co. of Am., 511
U.S. 375, 377 (1994). The burden of establishing the
contrary rests upon the party asserting jurisdiction. Id.
Because subject matter jurisdiction involves a court’s
power to hear a case, it can never be forfeited or
waived. United States v. Cotton, 535 U.S. 625, 630
(2002). Accordingly, lack of subject matter jurisdiction
may be raised by either party at any point during the

App. 42
litigation, through a motion to dismiss pursuant to
Federal Rule of Civil Procedure 12(b)(1). Arbaugh v.
Y&H Corp., 546 U.S. 500, 506 (2006); see also Int’l Union of Operating Eng’rs v. Cty. of Plumas, 559 F.3d
1041, 1043–44 (9th Cir. 2009). Indeed, “courts have an
independent obligation to determine whether subject
matter jurisdiction exists, even in the absence of a
challenge from any party.” Id.; see Fed. R. Civ. P.
12(h)(3) (requiring the court to dismiss the action if
subject matter jurisdiction is lacking).
There are two types of motions to dismiss for lack
of subject matter jurisdiction: a facial attack, and a factual attack. Thornhill Publ’g Co. v. Gen. Tel. & Elec.
Corp., 594 F.2d 730, 733 (9th Cir. 1979). Thus, a party
may either make an attack on the allegations of jurisdiction contained in the nonmoving party’s complaint,
or may challenge the existence of subject matter jurisdiction in fact, despite the formal sufficiency of the
pleadings. Id.
When a party makes a facial attack on a complaint, the attack is unaccompanied by supporting evidence, and it challenges jurisdiction based solely on
the pleadings. Safe Air for Everyone v. Meyer, 373 F.3d
1035, 1039 (9th Cir. 2004). If the motion to dismiss constitutes a facial attack, the Court must consider the
factual allegations of the complaint to be true, and determine whether they establish subject matter jurisdiction. Savage v. Glendale High Union Sch. Dist. No.
205, 343 F.3d 1036, 1039 n.1 (9th Cir. 2003). In the case
of a facial attack, the motion to dismiss is granted only
if the nonmoving party fails to allege an element

App. 43
necessary for subject matter jurisdiction. Id. However,
in the case of a factual attack, district courts “may review evidence beyond the complaint without converting the motion to dismiss into a motion for summary
judgment.” Safe Air for Everyone, 373 F.3d at 1039.
In the case of a factual attack, “no presumptive
truthfulness attaches to plaintiff ’s allegations.” Thornhill, 594 F.2d at 733 (internal citation omitted). The
party opposing the motion has the burden of proving
that subject matter jurisdiction does exist, and must
present any necessary evidence to satisfy this burden.
St. Clair v. City of Chico, 880 F.2d 199, 201 (9th Cir.
1989). If the plaintiff ’s allegations of jurisdictional
facts are challenged by the adversary in the appropriate manner, the plaintiff cannot rest on the mere assertion that factual issues may exist. Trentacosta v.
Frontier Pac. Aircraft Ind., Inc., 813 F.2d 1553, 1558
(9th Cir. 1987) (quoting Exch. Nat’l Bank of Chi. v.
Touche Ross & Co., 544 F.2d 1126, 1131 (2d Cir. 1976)).
Furthermore, the district court may review any evidence necessary, including affidavits and testimony,
in order to determine whether subject matter jurisdiction exists. McCarthy v. United States, 850 F.2d 558,
560 (9th Cir. 1988); Thornhill, 594 F.2d at 733. If the
nonmoving party fails to meet its burden and the court
determines that it lacks subject matter jurisdiction,
the court must dismiss the action. Fed. R. Civ. P.
12(h)(3).

App. 44
B. Rule 12(b)(6)
On a motion to dismiss for failure to state a claim
under Rule 12(b)(6), all allegations of material fact
must be accepted as true and construed in the light
most favorable to the nonmoving party. Cahill v. Liberty Mut. Ins. Co., 80 F.3d 336, 337–38 (9th Cir. 1996).
Rule 8(a)(2) “requires only ‘a short and plain statement of the claim showing that the pleader is entitled
to relief ’ in order to `give the defendant fair notice of
what the . . . claim is and the grounds upon which it
rests.’ ” Bell Atl. Corp. v. Twombly, 550 U.S. 544, 555
(2007) (quoting Conley v. Gibson, 355 U.S. 41, 47
(1957)). A complaint attacked by a Rule 12(b)(6) motion
to dismiss does not require detailed factual allegations.
However, “a plaintiff ’s obligation to provide the
grounds of his entitlement to relief requires more than
labels and conclusions, and a formulaic recitation of
the elements of a cause of action will not do.” Id. (internal citations and quotations omitted). A court is not required to accept as true a “legal conclusion couched as
a factual allegation.” Ashcroft v. Iqbal, 556 U.S. 662,
678 (2009) (quoting Twombly, 550 U.S. at 555. “Factual
allegations must be enough to raise a right to relief
above the speculative level.” Twombly, 550 U.S. at 555
(citing 5 Charles Alan Wright & Arthur R. Miller, Federal Practice and Procedure § 1216 (3d ed. 2004) (stating that the pleading must contain something more
than “a statement of facts that merely creates a suspicion [of ] a legally cognizable right of action”)).
Furthermore, “Rule 8(a)(2) . . . requires a showing,
rather than a blanket assertion, of entitlement to

App. 45
relief.” Twombly, 550 U.S. at 555 n.3 (internal citations
and quotations omitted). Thus, “[w]ithout some factual
allegation in the complaint, it is hard to see how a
claimant could satisfy the requirements of providing
not only ‘fair notice’ of the nature of the claim, but also
‘grounds’ on which the claim rests.” Id. (citing Wright
& Miller, supra, at 94, 95). A pleading must contain
“only enough facts to state a claim to relief that is plausible on its face.” Id. at 570. If the “plaintiffs . . . have
not nudged their claims across the line from conceivable to plausible, their complaint must be dismissed.” Id.
However, “[a] well-pleaded complaint may proceed
even if it strikes a savvy judge that actual proof of
those facts is improbable, and ‘that a recovery is very
remote and unlikely.’ ” Id. at 556 (quoting Scheuer v.
Rhodes, 416 U.S. 232, 236 (1974)).
C. Leave to Amend
A court granting a motion to dismiss a complaint
must then decide whether to grant leave to amend.
Leave to amend should be “freely given” where there is
no “undue delay, bad faith or dilatory motive on the
part of the movant, . . . undue prejudice to the opposing
party by virtue of allowance of the amendment, [or] futility of the amendment. . . .” Foman v. Davis, 371 U.S.
178, 182 (1962); Eminence Capital, LLC v. Aspeon, Inc.,
316 F.3d 1048, 1052 (9th Cir. 2003) (listing the Foman
factors as those to be considered when deciding
whether to grant leave to amend). Not all of these factors merit equal weight. Rather, “the consideration of
prejudice to the opposing party . . . carries the greatest

App. 46
weight.” Id. (citing DCD Programs, Ltd. v. Leighton,
833 F.2d 183, 185 (9th Cir. 1987)). Dismissal without
leave to amend is proper only if it is clear that “the
complaint could not be saved by any amendment.”
Intri-Plex Techs. v. Crest Group, Inc., 499 F.3d 1048,
1056 (9th Cir. 2007) (citing In re Daou Sys., Inc., 411
F.3d 1006, 1013 (9th Cir. 2005); Ascon Props., Inc. v.
Mobil Oil Co., 866 F.2d 1149, 1160 (9th Cir. 1989)
(“Leave need not be granted where the amendment
of the complaint . . . constitutes an exercise in futility. . . .”)).
ANALYSIS4
As stated in this Court’s previous Order, “the heart
of the parties’ dispute lies in [the] preemption arguments.” Prior Order, ECF No. 24, at 12:14. Generally,
ERISA shall “supersede any and all State laws insofar
as they may now or hereafter relate to any employee
benefit plan. . . .” 29 U.S.C. § 1144(a) (emphasis added).
In the FAC, Plaintiffs reallege that CalSavers creates
an employee benefit plan preempted by ERISA. The
Court first addresses whether CalSavers is an

4

As a preliminary matter, Plaintiffs ask the Court to reconsider whether the HJTA Employees have individual taxpayer
standing. FAC ¶ 29. As this Court previously discussed, individuals
cannot assert taxpayer standing to gain access to Federal Court.
See Valley Forge Christian Coll. v. Ams. United for Separation of
Church and State, Inc., 454 U.S. 464, 477 (1982); DaimlerChrysler
Corp. v. Cuno, 547 U.S. 332, 346 (2006).

App. 47
employee benefit plan, then turns to an analysis of
whether CalSavers relates to an ERISA plan.5
A. CalSavers is Not an Employee Benefit
Plan Under ERISA.
The term “employee benefit plan” is defined as “an
employee welfare benefit plan or an employee pension
benefit plan or a plan which is both an employee welfare benefit plan and an employee pension benefit
plan.” 29 U.S.C. § 1002(3). An “employee pension plan”
is “any plan, fund, or program . . . established or maintained by an employer” that provides retirement income to employees. 29 U.S.C. § 1002(2)(A)(i). The Court
5

The Court is cognizant that Defendants assert two additional arguments. First, they contend that CalSavers establishes
an individual retirement account (“IRA”) exempt from ERISA.
Defs.’ Mot. Dismiss, ECF No. 30, at 6:6–7; see Cal. Gov’t Code
§ 100008. “[F]ederal regulations clarify that so long as the involvement of an employer or employee organization is strictly limited, the term[ ] ‘employee pension benefit plan’ . . . shall not
include an [IRA] described in section 408(a) of the [Internal Revenue] Code. . . .” Charles Schwab & Co., Inc. v. Debickero, 593
F.3d 916, 919 (9th Cir. 2010) (citing 29 C.F.R. § 2510.3–2(d)(1))
(internal quotation marks omitted). Second, they again contend
that CalSavers is subject to the exemptions afforded by the 1975
Safe Harbor, which exempts certain IRA plans. Defs.’ Mot. Dismiss, ECF No. 30, at 11–12. However, the parties again dispute
whether an employee’s participation is “completely voluntary,” a
question considered by the Court in its Prior Order. Prior Order,
ECF No. 24, at 12–13. For the reasons outlined in that order, the
Court again declines to hold that CalSavers is entitled to the exemptions set forth in the 1975 Safe Harbor. No further analysis
is warranted on either question, however, because ERISA coverage depends upon the level of employer involvement in employee
benefit plans, which means neither of these issues is dispositive.

App. 48
will first discuss whether the Board and Trust are employers under ERISA, then turn to whether CalSavers
is established or maintained by an employer.
1. The Board and Trust Are Not Employers Under ERISA Because They
Do Not Act Directly or Indirectly in
the Interest of an Employer.
As defined in ERISA, an “employer” means “any
person acting directly as an employer, or indirectly in
the interest of an employer, in relation to an employee
benefit plan; and includes a group or association of employers acting for an employer in such capacity.” 29
U.S.C. § 1002(5). The parties concede that actual employers are “employers” under ERISA, but Plaintiffs
further assert that the Board and Trust are employers
“because a ‘trust’ is a ‘person’ who is ‘acting . . . indirectly in the interest of an employer.’ ”6 FAC ¶ 20.
Plaintiffs primarily rely on Kanne v. Conn. Gen.
Life Ins. Co., where construction industry employers
established a trust pursuant to ERISA requirements
and offered group health insurance benefits to employees that were administered by an employer association. 867 F.2d 489, 491 (9th Cir. 1988). The court held
that the association administering the trust could “be

6

The Court notes that Plaintiffs broadly refer to both the
Board and Trust as ERISA employers, but their analysis is limited to the Trust only. Compare FAC ¶ 20, with Pls.’ Opp., ECF
No. 37, at 12–13.

App. 49
an ERISA employer” under the definition laid out in
29 U.S.C. § 1002(5). Id. at 493.
Plaintiffs’ use of Kanne, however, is unpersuasive.
As Plaintiffs point out, the Ninth Circuit did not analyze whether the trust was an ERISA employer and as
such, Kanne does not provide any insight as to whether
the Trust here is an “employer.” Pls.’ Opp., ECF No. 37,
at 13:22–24. Furthermore, unlike the trust in Kanne,
which was administered by an association of employers, the Trust in this case is administered by the statecreated Board, not a group of employers. As such, the
Court declines to find that the Board and Trust are
“employers” under ERISA. The analysis does not end
here, as the Court must still determine whether
CalSavers is “established or maintained” by actual employers.
2. Actual Employers Neither Establish
nor Maintain CalSavers.
A plan, fund, or program under ERISA must be
established or maintained by an employer.7 29 U.S.C.
§ 1002(2)(A). The Ninth Circuit has held that “an
7

Plaintiffs and the United States ask the Court to find that
CalSavers constitutes an ERISA plan under the test set forth in
Donovan v. Dillingham, 688 F.2d 1367 (11th Cir. 1982). See FAC
¶ 20; U.S. Statement of Interest, ECF No. 43, at 10 n.2. However,
as the Court previously discussed, the Ninth Circuit has declined
to apply Donovan to government mandates on employers and has
expressed hesitation in applying the test where “employers made
no promises whatsoever to its employees. . . .” Prior Order, ECF
No. 24, at 15; see also Golden Gate Rest. Ass’n v. City & Cty. of
S.F., 546 F.3d 639, 652 (9th Cir. 2008).

App. 50
employer’s administrative duties must involve the application of more than a modicum of discretion in order
for those duties to amount to an ERISA plan.” Golden
Gate, 546 F.3d at 652. An employer’s decision in exercising ministerial duties does not rise to the level of
discretion required to be an ERISA fiduciary. Az. State
Carpenters Pension Tr. Fund v. Citibank, 125 F.3d 715,
722 (9th Cir. 1997). Additionally, an employer who
makes no promises to its employees regarding an employee benefit plan or its coverage is not considered to
have established or maintained such plans. See Golden
Gate, 546 F.3d at 654.
Plaintiffs argue that even if the Board and Trust
are not “employers” under ERISA, CalSavers requires
thousands of actual employers to create their own separate ERISA plans. Pls.’ Opp., ECF No. 37, at 19:3–10.
The Court disagrees. See Cal. Gov’t Code § 100034(b)
(“The [P]rogram is a state-administered program, not
an employer-sponsored program.”). Actual employers
have no discretion in the administration of CalSavers
and do not make any promises to employees: employers simply remit payroll deducted payments to the Program and otherwise have no discretion regarding the
funds. Cal. Gov’t Code § 100000(h); see Golden Gate,
546 F.3d at 650 (“It is within the exercise of [ ] discretion that an employer has the opportunity to engage
in the mismanagement of funds and other abuses
with which Congress was concerned when it enacted
ERISA.”).
Plaintiffs also refer to the phrase “maintenance
mode” on the CalSavers website as an admission that

App. 51
each actual employer will be maintaining its own
ERISA plan. Pls.’ Opp., ECF No. 37, at 18:28. However,
the term “maintenance mode” is limited to “submitting
contributions and adding new employees.” Ex. E, FAC.
The role of actual employers in CalSavers is limited to
providing a roster of eligible employees, providing contact information of eligible employees, making payroll
deductions, and remitting such deductions. See Golden
Gate, 546 F.3d at 651 (finding ERISA did not preempt
city ordinance requiring employers to track employees’
hours, calculate payment amounts, and remit payments to healthcare programs). Such ministerial duties do not rise to the level of an employee benefit plan
established or maintained by actual employers.
Based on the foregoing, CalSavers is not an ERISA
plan as defined in 29 U.S.C. § 1002(2)(A) because it is
not a plan which is established or maintained by an
employer. The only question that remains is whether
CalSavers is preempted by ERISA because it “relates
to” an ERISA plan.
B. CalSavers Does Not Relate to an ERISA
Plan.
A state law is preempted by ERISA if it “relates
to” an employee benefit plan. 29 U.S.C. § 1144(a). A law
“relates to” an ERISA plan if it has a connection with
or reference to such a plan.8 Cal. Div. of Labor Stds.
8

Plaintiffs assert that CalSavers’ express reference to
ERISA, even in an attempt to avoid ERISA preemption, is “no less
of a preempting reference.” Pls.’ Opp., ECF No. 37, at 21:8–9; see

App. 52
Enf ’t v. Dillingham Constr. N.A., 519 U.S. 316, 324
(1997). The Court first examines whether CalSavers
has a reference to an ERISA plan, then turns to
whether CalSavers has a connection with such a
plan.
1. CalSavers Does Not Have an Impermissible “Reference To” ERISA Plans.
A state law has an impermissible “reference to” an
ERISA plan if “(1) the law ‘acts immediately and exclusively upon ERISA plans,’ or (2) ‘the existence of
ERISA plans is essential to the law’s operation.’ ”
Golden Gate, 546 F.3d at 657 (citing Dillingham, 519
U.S. at 325). Plaintiffs argue that the Program’s reliance on the existence or non-existence of ERISA plans
constitutes an impermissible reference. Pls.’ Opp., ECF
No. 37, at 21:18–25. While CalSavers applies only
when actual employers do not have an existing ERISA
or employer-sponsored retirement plan, the Program
does not interfere with existing ERISA or retirement
plans provided by actual employers. Cal. Gov’t Code
§ 100032(g)(1) (“An employer that provides an employer-sponsored retirement plan . . . shall be exempt
from the requirements of [CalSavers].”); see Golden
Gate, 546 F.3d at 659 (“Where a law is fully functional
even in the absence of a single ERISA plan, . . . it does
also D.C. v. Greater Wash. Bd. of Trade, 506 U.S. 125, 129 (1992).
However, recent Supreme Court cases have rejected such a broad
and literal application of ERISA preemption. See Travelers, 514
U.S. at 655; Gobeille v. Liberty Mut. Ins. Co., 136 S. Ct. 936, 943
(2016).

App. 53
not make an impermissible reference to ERISA
plans.”). Therefore, CalSavers does not have an impermissible “reference to” ERISA plans.
2. CalSavers Does Not Have an Impermissible “Connection With” ERISA
Plans.
A state law has an impermissible “connection
with” ERISA if that law “ ‘governs . . . a central matter
of plan administration’ or ‘interferes with nationally
uniform plan administration.’ ” Gobeille, 136 S. Ct. at
943 (quoting Egelhoff v. Egelhoff, 532 U.S. 141, 148
(2001)). This Court previously found that “because the
Program only applies to employers without existing
retirement plans, no ERISA plans are ‘governed’ or ‘interfered’ with because of the statute.” Prior Order, ECF
No. 24, at 14:2–4.
Plaintiffs, as well as the United States, ask this
Court to reconsider its prior determination in light of
the Supreme Court’s holding in Gobeille. In that case,
a Vermont statute required health insurers, including
ERISA plans, to disclose “payments relating to health
care claims and other information relating to health
care services” for a state database. Id. at 940. The
Court held the statute was preempted by ERISA because the disclosure requirement interfered with the
nationally uniform plan administration and regulatory reporting domain of ERISA. Id. at 946.
Gobeille differs from the present matter because
CalSavers does not impose additional reporting

App. 54
requirements on existing ERISA plans. The information provided by participating employers does not
interfere with ERISA’s regulatory domain because reporting is only required where no ERISA or any other
employer-sponsored retirement plan exists. There are
no additional burdens or requirements imposed by
CalSavers on existing ERISA or employer-sponsored
retirement plans which interfere with ERISA’s regulatory domain or govern any central matter of plan administration. See S. Cal. IBEW-NECA Trust Funds v.
Std. Indus. Elec. Co., 247 F.3d 920, 925 (9th Cir. 2001)
(“California’s statute . . . imposes no new reporting,
disclosure, funding, or vesting requirements for ERISA
plans. [Nor does it] tell employers how to write ERISA
benefit plans or how to determine ERISA beneficiary
status. . . .”). As such, there is no impermissible “connection with” an ERISA plan which results in the
preemption of CalSavers.
In sum, the Court finds that CalSavers is neither
an employee benefit plan nor does it relate to an
ERISA plan. On these grounds, the Court concludes
that CalSavers is not preempted by ERISA and accordingly, Defendants’ Present Motion is GRANTED.9
9

Under Federal Rule of Evidence 201, a court may take judicial notice of matters which are “not subject to unreasonable
dispute in that it is either (1) generally known within the territorial jurisdiction of the trial court or (2) capable of accurate and
ready determination by resort to sources whose accuracy cannot
reasonably be questioned.” Fed. R. Evid. 201(b); Lee v. City of Los
Angeles, 250 F.3d 668, 688 (9th Cir. 2001). For purposes of the
Present Motion, Defendants’ Requests for Judicial Notice, ECF
Nos. 31 and 39, are GRANTED.

App. 55
CONCLUSION
For all the foregoing reasons, Defendants’ Motion
to Dismiss (ECF No. 30) is GRANTED.10 Because
CalSavers is not subject to preemption under ERISA
and Plaintiffs’ FAC is substantially similar to their
original Complaint, the Court further finds that
providing Plaintiffs leave to amend would be futile.
Accordingly, Plaintiffs’ claims are hereby DISMISSED
without leave to amend. The Clerk of the Court is directed to enter judgment in favor of Defendants and to
close the case.
IT IS SO ORDERED.
Dated:

March 10, 2020
/s/ Morrison C. England, Jr.
MORRISON C. ENGLAND, JR.
UNITED STATES DISTRICT
JUDGE

10
The Court declines to exercise supplemental jurisdiction
over the remaining state law claim.

App. 56
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF CALIFORNIA
HOWARD JARVIS TAXPAY- JUDGMENT IN A
ERS ASSOCIATION, ET AL.,
CIVIL CASE
v.
CASE NO: 2:18–CV–
CALIFORNIA SECURE
CHOICE RETIREMENT
SAVINGS PROGRAM,
ET AL.,

01584–MCE–KJN

(Filed Mar. 10, 2020)

Decision by the Court. This action came before the
Court. The issues have been tried, heard or decided by
the judge as follows:
IT IS ORDERED AND ADJUDGED
THAT JUDGMENT IS HEREBY ENTERED
IN ACCORDANCE WITH THE COURT’S ORDER FILED ON 3/10/2020
Keith Holland
Clerk of Court
ENTERED:

March 10, 2020
by: /s/ H. Huang
Deputy Clerk

App. 57
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF CALIFORNIA
HOWARD JARVIS
TAXPAYERS ASSOCIATION,
JONATHAN COUPAL, and
DEBRA DESROSIERS,
Plaintiffs,

No. 2:18-cv-01584MCE-KJN
MEMORANDUM
AND ORDER
(Filed Mar. 29, 2019)

v.
THE CALIFORNIA SECURE
CHOICE RETIREMENT SAVINGS PROGRAM and JOHN
CHIANG, in his official capacity
as Chair of the CALIFORNIA
SECURE CHOICES RETIREMENT SAVINGS INVESTMENT BOARD,
Defendants.

The Howard Jarvis Taxpayers Association (“HJTA”)
and individually named HJTA employees Jonathan
Coupal and Debra Desrosiers (“HJTA Employees”)
(collectively, “Plaintiffs”) filed this action against the
California Secure Choice Retirement Savings Program
(“CalSavers” or “the Program”) and California State
Treasurer John Chiang (“Treasurer”) (collectively, “Defendants”) contending that the Employee Retirement
Income Security Act (“ERISA” or “the Act”) preempts
the Program. Plaintiffs’ Complaint requests two forms
of relief: first, a declaratory judgment that CalSavers
is preempted by ERISA; and second, an injunction

App. 58
pursuant to California Code of Civil Procedure Section
526a to permanently enjoin spending of taxpayer
funds on the Program. Presently before the Court is
Defendants’ Motion to Dismiss (ECF No. 9) pursuant
to Federal Rules of Civil Procedure 12(b)(6) and
12(b)(1),1 contending, in part, that: (1) Plaintiffs lack
standing; (2) the case is not ripe because CalSavers is
not yet accepting enrollments; and (3) the CalSavers
program does not create an ERISA plan and thus is not
preempted. The motion has been fully briefed.
This case presents novel legal questions concerning state-mandated retirement savings accounts.
While the matter implicates a significant body of judicial and regulatory interpretations of ERISA, it nevertheless coalesces around a single narrow question:
does CalSavers, a state-mandated auto-enrollment retirement savings program, create an “employee benefit
plan,” such that it is preempted by ERISA? For the reasons set forth below, this Court finds that it does not
and therefore GRANTS Defendants’ Motion to Dismiss.2
BACKGROUND
Congress enacted ERISA in 1974 “to promote the
interests of employees and their beneficiaries in
1

All further references to “Rule” or “Rules” are to the Federal
Rules of Civil Procedure unless otherwise noted.
2
Because oral argument would not have been of material
assistance, the Court ordered this matter submitted on the briefs.
E.D. Cal. Local R. 230(g).

App. 59
employee benefit plans” and to “eliminate the threat of
conflicting or inconsistent State and local regulation of
employee benefit plans.” Bd. of Trs. of the Glazing
Health & Welfare Tr. v. Chambers, 903 F.3d 829, 845
(9th Cir. 2018) (citations omitted); see also ERISA, 88
Stat. 832, as amended, 29 U.S.C. §§ 1001–1461. While
ERISA does not require employers to provide any minimum set of benefits to employees, if such plans are
“established or maintained . . . by any employer,” they
must conform to various reporting and fiduciary requirements of the Act. Chambers, 903 F.3d at 845 (citing 29 U.S.C. § 1003(a)). Regarding ERISA’s effect on
State statutes, it “supersedes any and all State laws
insofar as they may now or hereafter relate to any employee benefit plan. . . .” Chambers, 903 F.3d at 837 (internal citations and quotation omitted) (emphasis
added).
The term “employee benefit plan” is “defined only
tautologically in the [ERISA] statute . . . being described as ‘an employee welfare benefit plan or employee pension benefit plan or a plan which is both an
employee welfare benefit plan and an employee pension benefit plan.’ ” Fort Halifax Packing Co. v. Coyne,
482 U.S. 1, 8-9 (1987) (citing 29 U.S.C. § 1002(3)). The
lack of a definition of “employee benefit plan” led the
Department of Labor (“DOL”)3 to “clarify the limits” of
an employee pension benefit plan for purposes of
ERISA. Daniels-Hall v. Nat’l Educ. Ass’n, 629 F.3d 992,
1003–04 (9th Cir. 2010). This clarification came in the
3

The DOL Secretary is empowered to enact regulations to
carry out the provisions of ERISA. 29 U.S.C. § 1135.

App. 60
form of a regulatory safe harbor in 1975 (“1975 Safe
Harbor”), which exempted certain Individual Retirement Account (“IRA”) plans. 29 C.F.R. § 2510.3-2(d);
Daniels-Hall, 629 F.3d at 999. Under the 1975 Safe
Harbor, employer payroll deductions for remittance to
an employee’s IRA are exempted from ERISA if:
(i) No contributions are made by the employer or employee association;
(ii) Participation is completely voluntary for
employees or members;
(iii) The sole involvement of the employer or
employee organization is without endorsement to permit the sponsor to publicize the
program to employees or members, to collect
contributions through payroll deductions or
dues checkoffs and to remit them to the sponsor; and
(iv) The employer or employee organization
receives no consideration in the form of cash
or otherwise, other than reasonable compensation for services actually rendered in connection with payroll deductions or dues
checkoffs.
29 C.F.R. § 2510.3-2(d)(1). “[A]n employer that qualifies for the [1975 Safe Harbor] is considered not to have
established or maintained an employee pension benefit
plan . . . [and] would therefore not be considered an
employee pension benefit plan” for purposes of ERISA.
Daniels-Hall, 629 F.3d at 1003–04. Significant to the
Court’s analysis here, discussed infra, is that the term

App. 61
“completely voluntary” is undefined within the 1975
Safe Harbor.
Defendants contend that in recent years a growing
number of citizens lack sufficient retirement income.
In response, several states began exploring state-run
retirement savings programs. In 2012, the California
Legislature passed the California Secure Choice Retirement Savings Trust Act, which created the CalSavers program to address the lack of retirement savings
for many of the state’s citizens. Cal. Gov’t Code
§§ 100000–100050. CalSavers creates a State-sponsored retirement savings plan for California employees
who do not have access to an employer-provided plan.
Cal. Gov’t Code § 100000(a), (c)–(d). The Program requires an “Eligible employer4 to “allow employee participation in the [CalSavers] program” via payroll
deductions if that employer does not offer a retirement
savings program of its own. Cal. Gov’t Code
§ 100032(b)–(d). Eligible employers must automatically enroll their employees and remit payroll deductions to the Program “unless the employee elects not to
participate.” Cal. Gov’t Code § 100032(f )(1). That is,

4

“Eligible employer” is defined as “a person or entity engaged in a business, industry, profession, trade, or other enterprise in the state, whether for profit or not for profit, excluding
the federal government, the state, any county, any municipal corporation, or any of the state’s units or instrumentalities, that has
five or more employees and that satisfies the requirements to establish or participate in a payroll deposit retirement savings arrangement.” Cal. Gov’t Code § 100000(d)(1).

App. 62
employees of Eligible employers are automatically enrolled, but can “opt out” of CalSavers if desired.
Faced with concerns that state-mandated retirement savings programs with “opt out,” as opposed to
“opt in,” enrollments may not be “completely voluntary” as contemplated in the 1975 Safe Harbor, the
DOL issued additional regulatory guidance in 2016
(“2016 Safe Harbor”) establishing ERISA exemptions
for state-sponsored auto-IRAs. See 81 FR 59464 (entitled “Savings Arrangements Established by States for
Non-Governmental Employees”). The preamble to the
2016 Safe Harbor explained:
With regard to the 1975 IRA Payroll Deduction Safe Harbor’s condition requiring that an
employee’s participation be “completely voluntary,” the Department intended this term to
mean that the employee’s enrollment in the
program must be self-initiated. In other
words, under the safe harbor, the decision to
enroll in the program must be made by the
employee, not the employer. If the employer
automatically enrolls employees in a benefit
program, the employees’ participation would
not be “completely voluntary” and the employer’s actions would constitute the “establishment” of a pension plan, within the
meaning of ERISA. . . . This is true even if the
employee can affirmatively opt out of the program.
81 FR 59464, 59465 (emphasis added). The 2016 Safe
Harbor set up a “voluntary” participation standard for
“state required and administered programs,” such that

App. 63
“automatic enrollment arrangements with employee
opt-out features” would be expressly exempt from
ERISA. 80 FR 72006, 72009. That the 2016 Safe Harbor
would have exempted CalSavers from ERISA’s provisions is undisputed. However, under the Congressional
Review Act, Congress passed legislation in 2017 repealing the 2016 Safe Harbor, which the President
signed into law.5 Subsequent to the repeal of the 2016
Safe Harbor, California has continued in its efforts to
implement the CalSavers program, which gave rise to
this current action.
Plaintiffs filed their Complaint on May 31, 2018
(ECF No. 1), which Defendants moved to dismiss via
the present Motion on July 25, 2018. ECF No. 9. After
consideration of the Parties’ briefs, the Court ordered
supplemental briefings concerning interpretations of
the 1975 Safe Harbor’s “completely voluntary” requirement and how, if at all, this requirement applies to
CalSavers, as well as how the principals of conflict and
field preemption may apply in the ERISA context. ECF
No. 19. Plaintiffs and Defendants filed their supplemental briefs on November 15, 2018. ECF Nos. 21 and
22.

5

See 115 P.L. 35, 131 Stat. 848 (“Congress disapproves the
rule submitted by the Department of Labor relating to ‘Savings
Arrangements Established by States for Non-Governmental Employees’ [ ] and such rule shall have no force or effect.”) (citation
omitted).

App. 64
STANDARD
A. Rule 12(b)(1)
Federal courts are courts of limited jurisdiction
and are presumptively without jurisdiction over civil
actions. Kokkonen v. Guardian Life Ins. Co. of Am., 511
U.S. 375, 377 (1994). The burden of establishing the
contrary rests upon the party asserting jurisdiction. Id.
Because subject matter jurisdiction involves a court’s
power to hear a case, it can never be forfeited or
waived. United States v. Cotton, 535 U.S. 625, 630
(2002). Accordingly, lack of subject matter jurisdiction
may be raised by either party at any point during the
litigation, through a motion to dismiss pursuant to
Federal Rule of Civil Procedure 12(b)(1). Arbaugh v.
Y&H Corp., 546 U.S. 500, 506 (2006); see also Int’l Union of Operating Eng’rs v. Cnty. of Plumas, 559 F.3d
1041, 1043-44 (9th Cir. 2009). Lack of subject matter
jurisdiction may also be raised by the district court sua
sponte. Ruhrgas AG v. Marathon Oil Co., 526 U.S. 574,
583 (1999). Indeed, “courts have an independent obligation to determine whether subject matter jurisdiction exists, even in the absence of a challenge from any
party.” Id.; see Fed. R. Civ. P. 12(h)(3) (requiring the
court to dismiss the action if subject matter jurisdiction is lacking).
There are two types of motions to dismiss for lack
of subject matter jurisdiction: a facial attack, and a
factual attack. Thornhill Publ’g Co. v. Gen. Tel. & Elec.
Corp., 594 F.2d 730, 733 (9th Cir. 1979). Thus, a party
may either make an attack on the allegations of

App. 65
jurisdiction contained in the nonmoving party’s complaint, or may challenge the existence of subject matter jurisdiction in fact, despite the formal sufficiency of
the pleadings. Id.
When a party makes a facial attack on a complaint, the attack is unaccompanied by supporting evidence, and it challenges jurisdiction based solely on
the pleadings. Safe Air for Everyone v. Meyer, 373 F.3d
1035, 1039 (9th Cir. 2004). If the motion to dismiss constitutes a facial attack, the Court must consider the
factual allegations of the complaint to be true, and determine whether they establish subject matter jurisdiction. Savage v. Glendale High Union Sch. Dist. No.
205, 343 F.3d 1036, 1039 n.1 (9th Cir. 2003). In the case
of a facial attack, the motion to dismiss is granted only
if the nonmoving party fails to allege an element necessary for subject matter jurisdiction. Id. However, in
the case of a factual attack, district courts “may review
evidence beyond the complaint without converting the
motion to dismiss into a motion for summary judgment.” Safe Air for Everyone, 373 F.3d at 1039.
In the case of a factual attack, “no presumptive
truthfulness attaches to plaintiff ’s allegations.” Thornill, 594 F.2d at 733 (internal citation omitted). The
party opposing the motion has the burden of proving
that subject matter jurisdiction does exist, and must
present any necessary evidence to satisfy this burden.
St. Clair v. City of Chico, 880 F.2d 199, 201 (9th Cir.
1989). If the plaintiff ’s allegations of jurisdictional
facts are challenged by the adversary in the appropriate manner, the plaintiff cannot rest on the mere

App. 66
assertion that factual issues may exist. Trentacosta v.
Frontier Pac. Aircraft Ind., Inc., 813 F.2d 1553, 1558
(9th Cir. 1987) (quoting Exch. Nat’l Bank of Chi. v.
Touche Ross & Co., 544 F.2d 1126, 1131 (2d Cir. 1976)).
Furthermore, the district court may review any evidence necessary, including affidavits and testimony, in
order to determine whether subject matter jurisdiction
exists. McCarthy v. United States, 850 F.2d 558, 560
(9th Cir. 1988); Thornhill, 594 F.2d at 733. If the nonmoving party fails to meet its burden and the court determines that it lacks subject matter jurisdiction, the
court must dismiss the action. Fed. R. Civ. P. 12(h)(3).
B. Rule 12(b)(6)
On a motion to dismiss for failure to state a claim
under Rule 12(b)(6), all allegations of material fact
must be accepted as true and construed in the light
most favorable to the nonmoving party. Cahill v. Liberty Mut. Ins. Co., 80 F.3d 336, 337-38 (9th Cir. 1996).
Rule 8(a)(2) “requires only ‘a short and plain statement
of the claim showing that the pleader is entitled to relief ’ in order to ‘give the defendant fair notice of what
the . . . claim is and the grounds upon which it rests.’ ”
Bell Atl. Corp. v. Twombly, 550 U.S. 544, 555 (2007)
(quoting Conley v. Gibson, 355 U.S. 41, 47 (1957)). A
complaint attacked by a Rule 12(b)(6) motion to dismiss does not require detailed factual allegations.
However, “a plaintiff ’s obligation to provide the
grounds of his entitlement to relief requires more than
labels and conclusions, and a formulaic recitation of
the elements of a cause of action will not do.” Id.

App. 67
(internal citations and quotations omitted). A court is
not required to accept as true a “legal conclusion
couched as a factual allegation.” Ashcroft v. Iqbal, 556
U.S. 662, 678 (2009) (quoting Twombly, 550 U.S. at
555). “Factual allegations must be enough to raise a
right to relief above the speculative level.” Twombly,
550 U.S. at 555 (citing 5 Charles Alan Wright & Arthur
R. Miller, Federal Practice and Procedure § 1216 (3d
ed. 2004) (stating that the pleading must contain
something more than “a statement of facts that merely
creates a suspicion [of ] a legally cognizable right of action”)).
Furthermore, “Rule 8(a)(2) . . . requires a showing,
rather than a blanket assertion, of entitlement to relief.” Twombly, 550 U.S. at 555 n.3 (internal citations
and quotations omitted). Thus, “[w]ithout some factual
allegation in the complaint, it is hard to see how a
claimant could satisfy the requirements of providing
not only ‘fair notice’ of the nature of the claim, but also
‘grounds’ on which the claim rests.” Id. (citing Wright
& Miller, supra, at 94, 95). A pleading must contain
“only enough facts to state a claim to relief that is plausible on its face.” Id. at 570. If the “plaintiffs . . . have
not nudged their claims across the line from conceivable to plausible, their complaint must be dismissed.” Id.
However, “[a] well-pleaded complaint may proceed
even if it strikes a savvy judge that actual proof of
those facts is improbable, and ‘that a recovery is very
remote and unlikely.’ ” Id. at 556 (quoting Scheuer v.
Rhodes, 416 U.S. 232, 236 (1974)).

App. 68
C. Leave to Amend
A court granting a motion to dismiss a complaint
must then decide whether to grant leave to amend.
Leave to amend should be “freely given” where there is
no “undue delay, bad faith or dilatory motive on the
part of the movant, . . . undue prejudice to the opposing
party by virtue of allowance of the amendment, [or] futility of the amendment. . . .” Foman v. Davis, 371 U.S.
178, 182 (1962); Eminence Capital, LLC v. Aspeon, Inc.,
316 F.3d 1048, 1052 (9th Cir. 2003) (listing the Foman
factors as those to be considered when deciding
whether to grant leave to amend). Not all of these factors merit equal weight. Rather, “the consideration of
prejudice to the opposing party . . . carries the greatest
weight.” Id. (citing DCD Programs, Ltd. v. Leighton,
833 F.2d 183, 185 (9th Cir. 1987)). Dismissal without
leave to amend is proper only if it is clear that “the
complaint could not be saved by any amendment.”
Intri-Plex Techs. v. Crest Group, Inc., 499 F.3d 1048,
1056 (9th Cir. 2007) (citing In re Daou Sys., Inc., 411
F.3d 1006, 1013 (9th Cir. 2005); Ascon Props., Inc. v.
Mobil Oil Co., 866 F.2d 1149, 1160 (9th Cir. 1989)
(“Leave need not be granted where the amendment of
the complaint . . . constitutes an exercise in futility. . . .”)).
ANALYSIS
A. Standing
Defendants move under both Rules 12(b)(1) for
lack of subject matter jurisdiction and 12(b)(6) for failure to state a claim, asserting that Plaintiffs lack

App. 69
Article III and ERISA standing. Article III standing,
unlike statutory standing, is a jurisdictional requirement that Plaintiffs, as the parties invoking federal
jurisdiction in this matter, have the burden of establishing. Lujan v. Defenders of Wildlife, 504 U.S. 555,
561 (1992). It requires not only an injury in fact, but
also a causal connection between Defendants’ conduct
and a showing that action by the Court can redress
that injury:
First, the plaintiff must have suffered an “injury in fact” – an invasion of a legally protected interest which is (a) concrete and
particularized, and (b) “actual or imminent,
not conjectural or hypothetical.” . . . Second,
there must be a causal connection between
the injury and the conduct complained of-- the
injury has to be “fairly traceable to the challenged action of the defendant, and not the result of the independent action of some third
party not before the court.” . . . Third, it must
be “likely,” as opposed to merely “speculative,”
that the injury will be “redressed by a favorable decision.”
Id. at 560-61 (internal citation and formatting omitted).
Here, HJTA asserts standing as an employer of
California workers, as well as associational standing
based on its members. ECF No. 16 at 2, 10. HJTA Employees allude to standing as California taxpayers. Id.
at 5. Conversely, Defendants contend that each Plaintiff lacks standing because CalSavers is not open for

App. 70
enrollment and therefore no injury could have been
caused by the Program.6 ECF No. 9 at 9. As to HJTA’s
associational standing, Defendants argue that the issues presented in this case are not germane to HJTA’s
purpose as an organization (i.e., taxpayers’ rights).
ECF No. 18 at 4–5. Finally, Defendants additionally
argue that HJTA Employees lack standing because
even if CalSavers creates an ERISA plan, they are not
“participants” in the plan because they are not enrolled. Id. at 10–11.
As to the HJTA Employees, the Court finds that
they lack standing. They are not yet participating in
an ERISA plan, and their potential injuries, if any, are
too remote to confer standing. See Miller v. Rite Aid
Corp., 504 F.3d 1102, 1105–06 (9th Cir. 2007) (“civil action under ERISA may be brought by a ‘participant’ in
or ‘beneficiary’ of an ERISA plan . . . [and] [w]e have
repeatedly held that whether a living party is a ‘participant’ or ‘beneficiary’ is determined as of the time
the lawsuit is filed.”) (emphasis added). Also, Plaintiffs
cannot assert taxpayer standing to gain access to Federal Court. DaimlerChrysler Corp. v. Cuno, 547 U.S.
332, 346 (2006).
Turning to HJTA’s contentions regarding associational standing, the Court agrees with Defendants that
the issues presented in this case are not germane to
HJTA’s purpose such that it would be able to assert
standing on behalf of its members. However, the Court
6

Enrollment was projected to begin by the end of 2018 or
early 2019. ECF No. 9 at 4.

App. 71
nonetheless further finds that HJTA does have standing as an “Eligible employer” under the Program. If
CalSavers does not create an ERISA plan, HJTA lacks
ERISA standing—however, if the Program does create
an ERISA plan, HJTA has both Article III and statutory standing as a potential plan fiduciary. The arguments concerning HJTA’s ERISA standing thus
intertwine with the ultimate preemption questions of
this case, and touch upon substantive elements of
HJTA’s claims. Precedent supports treating these situations as “nonjurisdictional” because HJTA’s “statutory standing or lack thereof under ERISA does not
affect whether the Court has subject matter jurisdiction . . . [w]hether [a plaintiff ] is a [plan] participant
for purposes of ERISA is a substantive element of his
claim, not a prerequisite for subject matter jurisdiction.” Leeson v. Transamerica Disability Income Plan,
671 F.3d 969, 971 (9th Cir. 2012). Accordingly, for present purposes, the Court finds that HJTA has standing
as a potential ERISA plan fiduciary.
B. Ripeness
The doctrine of ripeness is also a jurisdictional
concept designed “to prevent the courts, through premature adjudication, from entangling themselves in abstract disagreements” that do not yet rise to the level
of a concrete case or controversy. Thomas v. Union Carbide Agric. Prod. Co., 473 U.S. 568, 580 (1985). Whereas
standing is concerned with whether the right party is
suing, ripeness hinges on whether the lawsuit is
brought at the proper time. See id. (citing Regional Rail

App. 72
Reorg. Act Cases, 419 U.S. 102, 140 (1974)). “A claim is
not ripe for adjudication if it rests upon ‘contingent future events that may not occur as anticipated, or indeed may not occur at all.’ ” Texas v. U.S., 523 U.S. 296,
300 (1998), citing Thomas, 473 U.S. at 580–81. The
ripeness inquiry has thus been characterized as
“standing on a timeline” in which the key determination is whether the case and controversy is such that
judicial intervention is necessary. Bova v. City of
Medford, 564 F.3d 1093, 1096 (9th Cir. 2009). Consequently, while ripeness and standing are related concepts and tend to significantly overlap, particularly in
pre-enforcement challenges to laws and regulations,
they still should be addressed separately. See, e.g.,
Eternal Word Tel. Network, Inc. v. Sebelius, 935
F. Supp. 2d 1196, 1213 (N.D. Ala. 2013).
Defendants contend that this case is not ripe because enrollments have not yet occurred, CalSavers’
Board of Directors has not published final regulations,
and HJTA would not be subject to CalSavers’ requirements for at least 36 months given its current number
of employees. ECF No. 9 at 8. Plaintiffs of course disagree, pointing to the 2012 statute that created
CalSavers and which provides that the Program “is
approved by the Legislature and implemented as of
January 1, 2017.” Cal. Gov’t Code § 100046 (emphasis
added). Plaintiffs have the better argument. CalSavers
was enacted in 2012, is “implemented” as of 2017, and
is on the eve of enrolling its first participants. Its most
contentious requirement—the mandatory auto-enrollment feature—is already established. Furthermore, if

App. 73
CalSavers creates an ERISA plan, the harm to HJTA
in becoming a forced fiduciary would be “reasonable
and imminent, and not merely theoretically possible.”
ProtectMarriage.com – Yes on 8 v. Bowen, 752 F.3d 827,
838–39 (9th Cir. 2014); see also Gobeille v. Liberty Mut.
Ins. Co., 136 S. Ct. 936, 945 (2016) (“[a] plan need not
wait to bring a pre-emption claim until confronted with
numerous inconsistent obligations and encumbered
with any ensuing costs.”). Therefore, the Court finds
that this case is ripe for adjudication.
C. Preemption
The heart of the parties’ dispute ultimately lies in
their preemption arguments. The Court first addresses
the 1975 Safe Harbor’s application to CalSavers, then
turns to an analysis of preemption in the ERISA context.
1. CalSavers is not entitled to the exemptions set forth in the 1975 Safe
Harbor.
If CalSavers meets the requirements of the 1975
Safe Harbor, ERISA does not preempt it. The 1975 Safe
Harbor outlined four requirements for ERISA exclusion of employer payroll deduction IRAs: (1) no employer contributions are allowed; (2) employee
participation must be “completely voluntary”; (3) the
employer cannot endorse the program; and (4) the employer cannot receive compensation from the program.
29 C.F.R. § 2510.3-2(d). Only one of these factors—

App. 74
whether CalSavers is completely voluntary—is at issue here.
Plaintiffs contend that if employers automatically
enroll their employees into CalSavers, as is mandated
by the California law, the Program is not completely
voluntary and thus establishes an ERISA plan. ECF
No. 16 at 15–16. Indeed, the preamble to the 2016 Safe
Harbor explained that the new regulation was necessary because state-mandated IRAs with auto-enrollment features would fall outside the provisions of the
1975 Safe Harbor. 81 FR 59464, 59465. This arises
from the DOL’s 2016 interpretation that “completely
voluntary” under 1975 Safe Harbor requires that the
employee initiate participation. Yet, no other authorities support this interpretation of “completely voluntary” with regard to state action; Plaintiffs did not give
any, and simply rely upon the 2016 Safe Harbor to support this premise. See ECF No. 16 at 15. An agency’s
interpretation of its own regulation is given significant
deference. See Udall v. Tallman, 380 U.S. 1, 16 (1965)
(“[w]hen the construction of an administrative regulation rather than a statute is in issue, deference [to the
agency charged with its administration] is even more
clearly in order.”). However, in repealing the 2016 Safe
Harbor pursuant to the Congressional Review Act,
Congress repealed the DOL’s interpretation of the matters at issue here, making determining congressional
intent more difficult.
That said, based on the record as a whole, the
Court declines to hold that CalSavers is subject to the
exemptions afforded by the 1975 Safe Harbor. But that

App. 75
does not end the Court’s analysis if resort to a safe harbor is unnecessary in the first place. Accordingly, it
must still examine Plaintiff ’s claims under traditional
federal preemption principles.
2. Regardless of Whether CalSavers is
Covered by the 1975 Safe Harbor, it
is Still Not Preempted by ERISA.
The Ninth Circuit has recently held that “under
the modern approach a state law is not preempted
merely because it has a literal ‘connection with’ an
ERISA plan. . . . Instead, the law must actually ‘govern[ ] . . . a central matter of plan administration’ or
‘interfere[ ] with nationally uniform plan administration.’ ” Chambers, 903 F.3d at 847 (citation omitted)
(citing Gobeille v. Liberty Mut. Ins. Co., 136 S. Ct. 936,
943 (2016)) (emphasis in original). Neither of these
prohibited actions occur as a result of CalSavers.
Here, Eligible employers are required to adhere to
the administrative requirements of CalSavers, but because the Program only applies to employers without
existing retirement plans, no ERISA plans are “governed” or “interfered” with because of the statute. See
Cal. Gov’t Code § 100032(g)(1) (“An employer that provides an employer-sponsored retirement plan . . . shall
be exempt from the requirements of [CalSavers].”). The
primary purposes of ERISA are to (1) protect the interests of employees in receiving the benefits promised by
an employer and (2) protect employers from the burdens of meeting multiple regulatory requirements for

App. 76
managing ERISA plans. Chambers, 903 F.3d at 845.
Yet, Eligible employers are not required to make any
promises to employees—they simply remit payroll deducted payments to the Program and otherwise have
no discretion regarding the funds. Such ministerial duties fall outside of scope of conduct that Congress intended to regulate in enacting ERISA. See Golden
Gate Rest. Ass’n v. City & Cty. of S.F., 546 F.3d 639, 650
(9th Cir. 2008) (“It is within the exercise of [ ] discretion
that an employer has the opportunity to engage in the
mismanagement of funds and other abuses with which
Congress was concerned when it enacted ERISA.”).
Defendants cite several cases tending to show that
state mandates concerning employee benefits are not
preempted if the law does not force employers to create
or alter ERISA plans. In Golden Gate, the court upheld
a San Francisco ordinance requiring employers within
the city to make minimum health care expenditures on
behalf of their employees. 546 F.3d at 642. Employers
who met minimum spending requirements via other
methods (such as existing ERISA plans) were not required to make additional payments, but employers
who did not were required to make payments to a Cityadministered health care program. Id. at 643–46. The
ordinance required employers to track workers who
performed qualifying work within the city, to include
the number of hours worked and calculations on previously paid health care expenditures. Id. at 651. In finding that the ordinance did not create an ERISA plan,
the court provided that, “[a]n employer’s administrative obligations under the City-payment option do not

App. 77
run the risk of mismanagement of funds or other
abuse . . . [and that] . . . maintaining these records
amount[ed] to nothing more than the exercise of ‘a
modicum of discretion.’ ” Golden Gate, 546 F.3d at 651.
In Fort Halifax Packing Co. v. Coyne, 482 U.S. 1
(1987), the Court found that a Maine statute requiring
employers who closed factories within the State to give
one-time severance payments to impacted employees
did not “relate to any employee benefit plan,” and thus
was not preempted by ERISA. The Court reasoned, “[i]f
a State creates no prospect of conflict with a federal
statute, there is no warrant for disabling it from attempting to address uniquely local social and economic
problems.” Id. at 19.
While Plaintiffs rely on Donovan v. Dillingham,
688 F.2d 1367, 1373 (11th Cir. 1982) to support the contention that CalSavers falls within ERISA’s provisions,
this reliance is misplaced. The Donovan court provided
that, a “plan, fund, or program under ERISA is established if from the surrounding circumstances a reasonable person can ascertain the intended benefits, a class
of beneficiaries, the source of financing, and procedures
for receiving benefits.” Id. at 1373. However, the Ninth
Circuit declined to apply this test when considering
government mandates on employers, stating that “[w]e
would be very hesitant to hold that the Donovan criteria apply to statutory administrative burdens imposed
on an employer where, as here, that employer has
made no promises whatsoever to its employees. . . .”
Golden Gate, 546 F.3d at 652. This Court holds the
same hesitation here.

App. 78
Finding that ERISA preempts CalSavers would
be out-of-step with the underlying purposes of the Act.
CalSavers does not govern a central matter of an
ERISA plan’s administration, nor does it interfere with
nationally uniform plan administration. On this basis,
the Court finds that CalSavers is not preempted by
ERISA. Accordingly, Defendants’ Motion to Dismiss is
GRANTED.7, 8
CONCLUSION
For all the foregoing reasons, Defendants’ Motion
to Dismiss (ECF No. 9) is GRANTED. Because CalSavers is not subject to preemption under ERISA, the
Court further finds that providing Plaintiffs leave to
amend would be futile. Accordingly, Plaintiffs’ claims
are hereby DISMISSED with one final leave to amend.
The Court is very aware of the importance of this case
and considered granting this motion without leave to
amend. However, notwithstanding the Court’s concern,
allowing one final opportunity to amend may be in the
7

Under Federal Rule of Evidence 201, a court may take judicial notice of matters which are “not subject to reasonable dispute in that it is either (1) generally known within the territorial
jurisdiction of the trial court or (2) capable of accurate and ready
determination by resort to sources whose accuracy cannot reasonably be questioned.” Fed. R. Evid. 201(b); Lee v. City of Los Angeles, 250 F.3d 668, 688 (9th Cir. 2001). For purposes of the present
Motion, Defendants’ Requests for Judicial Notice (“RJN”), ECF
Nos. 10 and 23, and Plaintiffs’ RJN, ECF No. 17, are GRANTED.
8
Defendants raise other contentions that Plaintiffs’ claims
are barred by the Eleventh Amendment. ECF No. 9 at 2, 19-20.
However, given the ruling on Defendants’ Motion, the Court finds
it unnecessary to address these arguments.

App. 79
parties’ best interest. Plaintiffs will have twenty (20)
days from the date this order is electronically filed to
file an amended complaint. If no amended complaint
is filed within said time period, this case will be dismissed without leave to amend with no further notice
to the parties.
IT IS SO ORDERED.
Dated:

March 28, 2019
/s/ Morrison C. England, Jr.
MORRISON C. ENGLAND, JR.
UNITED STATES DISTRICT
JUDGE

App. 80
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
HOWARD JARVIS TAXPAYERS ASSOCIATION;
et al.,
Plaintiffs-Appellants,
v.

No. 20-15591
D.C. No.
2:18-cv-01584-MCE-KJN
Eastern District of
California, Sacramento

ORDER
CALIFORNIA SECURE
(Filed Jun. 15, 2021)
CHOICE RETIREMENT
SAVINGS PROGRAM;
JOHN CHIANG,
California State Treasurer,
Defendants-Appellees.
Before: HURWITZ and BRESS, Circuit Judges, and
CORKER,* District Judge.
Judges Hurwitz and Bress voted to deny the petition for rehearing en banc, and Judge Corker so recommended. The petition for rehearing en banc was
circulated to the judges of the Court, and no judge requested a vote for en banc consideration. Fed. R. App.
P. 35. The petition for rehearing en banc is DENIED.

* The Honorable Clifton L. Corker, United States District
Judge for the Eastern District of Tennessee, sitting by designation.

App. 81
29 U.S.C. § 1002 (1)(2)(5)(9)(32)
(1) The terms “employee welfare benefit plan” and
“welfare plan” mean any plan, fund, or program which
was heretofore or is hereafter established or maintained by an employer or by an employee organization,
or by both, to the extent that such plan, fund, or program was established or is maintained for the purpose
of providing for its participants or their beneficiaries,
through the purchase of insurance or otherwise, (A)
medical, surgical, or hospital care or benefits, or benefits in the event of sickness, accident, disability, death
or unemployment, or vacation benefits, apprenticeship
or other training programs, or day care centers, scholarship funds, or prepaid legal services, or (B) any benefit described in section 302(c) of the Labor
Management Relations Act, 1947 [29 USCS § 186(c)]
(other than pensions on retirement or death, and insurance to provide such pensions).
...
(2)
(A) Except as provided in subparagraph (B), the
terms “employee pension benefit plan” and “pension
plan” mean any plan, fund, or program which was
heretofore or is hereafter established or maintained by
an employer or by an employee organization, or by
both, to the extent that by its express terms or as a
result of surrounding circumstances such plan, fund,
or program—
(i)

provided retirement income to employees, or

App. 82
(ii) results in a deferral of income by employees
for periods extending to the termination of covered
employment or beyond, regardless of the method
of calculating the contributions made to the plan,
the method of calculating the benefits under the
plan or the method of distributing benefits from
the plan. A distribution from a plan, fund, or program shall not be treated as made in a form other
than retirement income or as a distribution prior
to termination of covered employment solely because such distribution is made to an employee
who has attained age 62 and who is not separated
from employment at the time of such distribution.
(B) The Secretary may by regulation prescribe
rules consistent with the standards and purposes of
this Act providing one or more exempt categories under which—
(i)

severance pay arrangements, and

(ii) supplemental retirement income payments,
under which the pension benefits of retirees or
their beneficiaries are supplemented to take into
account some portion or all of the increases in the
cost of living (as determined by the Secretary of
Labor) since retirement, shall, for purposes of this
title, be treated as welfare plans rather than pension plans. In the case of any arrangement or payment a principal effect of which is the evasion of
the standards or purposes of this Act applicable to
pension plans, such arrangement or payment shall
be treated as a pension plan. An applicable voluntary early retirement incentive plan (as defined in
section 457(e)(11)(D)(ii) of the Internal Revenue
Code of 1986 [26 USCS § 457(e)(11)(D)(ii)])

App. 83
making payments or supplements described in
section 457(e)(11)(D)(i) [26 USCS § 457(e)(11)(D)(i)]
of such Code, and an applicable employment retention plan (as defined in section 457(f )(4)(C) of
such Code [26 USCS § 457(f )(4)(C)]) making payments of benefits described in section 457(f )(4)(A)
of such Code [26 USCS § 457(f )(4)(A)], shall, for
purposes of this title, be treated as a welfare plan
(and not a pension plan) with respect to such payments and supplements.
(C)

A pooled employer plan shall be treated as—

(i) a single employee pension benefit plan or single pension plan; and
(ii) a plan to which section 210(a) [29 USCS
§ 1060(a)] applies.
...
(5) The term “employer” means any person acting directly as an employer, or indirectly in the interest of an
employer, in relation to an employee benefit plan; and
includes a group or association of employers acting for
an employer in such capacity.
...
(9) The term “person” means an individual, partnership, joint venture, corporation, mutual company, jointstock company, trust, estate, unincorporated organization, association, or employee organization.
...

App. 84
(32) The term “governmental plan” means a plan established or maintained for its employees by the Government of the United States, by the government of
any State or political subdivision thereof, or by any
agency or instrumentality of any of the foregoing. The
term “governmental plan” also includes any plan to
which the Railroad Retirement Act of 1935 or 1937 applies, and which is financed by contributions required
under that Act and any plan of an international organization which is exempt from taxation under the provisions of the International Organizations Immunities
Act (59 Stat. 669). The term “governmental plan” includes a plan which is established and maintained by
an Indian tribal government (as defined in section
7701(a)(40) of the Internal Revenue Code of 1986 [26
USCS § 7701(a)(40)]), a subdivision of an Indian tribal
government (determined in accordance with section
7871(d) of such Code [26 USCS § 7871(d)]), or an
agency or instrumentality of either, and all of the participants of which are employees of such entity substantially all of whose services as such an employee
are in the performance of essential governmental
functions but not in the performance of commercial
activities (whether or not an essential government
function)[.]
(29 U.S.C. § 1002 (LexisNexis, Lexis Advance through
Public Law 117-26, approved July 6, 2021, excepting
Part V of Subtitle A of Title 10, as added by Public Law
116-283 (effective 1/1/2022) and Public Law 117-2).)

App. 85
115 P.L. 35
Adopted, May 17, 2017
Reporter
115 P.L. 35; 131 Stat. 848; 2017 Enacted H.J. Res. 66;
115 Enacted H.J. Res. 66
UNITED STATES PUBLIC LAWS > 115th Congress – 1st Session > PUBLIC LAW 115-35 > [H.J.
Res. 66]
Synopsis
JOINT RESOLUTION
Disapproving the rule submitted by the Department of
Labor relating to savings arrangements established by
States for non-governmental employees.
Text
Resolved by the Senate and House of Representatives
of the United States of America in Congress assembled,
That Congress disapproves the rule submitted by
the Department of Labor relating to “Savings Arrangements Established by States for Non-Governmental
Employees” (published at 81 Fed. Reg. 59464 (August
30, 2016)), and such rule shall have no force or effect.
Speaker of the House of Representatives.
Vice President of the United States and President of
the Senate.

App. 86
81 FR 59464, 59476-59477
(August 30, 2016)
List of Subjects in 29 CFR Part 2510
Accounting, Employee benefit plans, Employee Retirement Income Security Act, Pensions, Reporting, Coverage.
•

For the reasons stated in the preamble, the
Department of Labor amends 29 CFR part
2510 as set forth below:
o

•

PART 2510 – DEFINITIONS OF
TERMS USED IN SUBCHAPTERS C,
D, E, F, G, AND L OF THIS CHAPTER

1. The authority citation for part 2510 is revised to read as follows:
o
Authority: 29 U.S.C. 1002(2), 1002(21),
1002(37), 1002(38), 1002(40), 1031, and
1135; Secretary of Labor’s Order No. 12011, 77 FR 1088 (Jan. 9, 2012); Sec.
2510.3-101 also issued under sec. 102 of
Reorganization Plan No. 4 of 1978, 5
U.S.C. App. at 237 (2012), E.O. 12108, 44
FR 1065 (Jan. 3, 1979) and 29 U.S.C. 1135
note. Sec. 2510.3-38 is also issued under
sec. 1, Pub. L. 105-72, 111 Stat. 1457 (1997).

•

2. In § 2510.3-2, revise paragraph (a) and
add paragraph (h) to read as follows:
o

§ 2510.3-2 Employee pension benefit
plans.

App. 87
•

(a) General. This section clarifies
the terms “employee pension benefit
plan” and “pension plan” for purposes
of title I of the Act and this chapter
by setting forth safe harbors under
which certain specific plans, funds
and programs would not constitute
employee pension benefit plans when
the conditions of this section are satisfied. The safe harbors in this section should not be read as implicitly
indicating the Department’s views on
the possible scope of section 3(2). To
the extent that these plans, funds
and programs constitute employee
welfare benefit plans within the
meaning of section 3(1) of the Act and
§ 2510.3-1 of this part, they will be
covered under title I; however, they
will not be subject to parts 2 and 3 of
title I of the Act.

•

(h) Certain State savings programs.

*****

•

(1) For purposes of title I of the
Act and this chapter, the terms
“employee pension benefit plan”
and “pension plan” shall not include an individual retirement
plan (as defined in 26 U.S.C.
7701(a)(37)) established and
maintained pursuant to a State

App. 88
payroll deduction savings program, provided that:
•

(i) The program is specifically established pursuant
to State law;

•

(ii) The program is implemented and administered
by the State establishing
the program (or by a governmental agency or instrumentality of the State),
which is responsible for investing the employee savings
or
for
selecting
investment alternatives for
employees to choose;

•

(iii) The State (or governmental agency or instrumentality of the State)
assumes responsibility for
the security of payroll deductions and employee savings;

•

(iv) The State (or governmental agency or instrumentality of the State)
adopts measures to ensure
that employees are notified
of their rights under the program, and creates a mechanism for enforcement of
those rights;

App. 89
•

(v) Participation in the
program is voluntary for
employees;

•

(vi) All rights of the employee, former employee, or
beneficiary under the program are enforceable only
by the employee, former employee, or beneficiary, an
authorized representative
of such a person, or by the
State (or governmental
agency or instrumentality of
the State);

•

(vii) The involvement of
the employer is limited to
the following:
•

(A) Collecting employee
contributions through
payroll deductions and
remitting them to the
program;

•

(B) Providing notice
to the employees and
maintaining records regarding the employer’s
collection and remittance of payments under the program;

•

(C) Providing information to the State (or
governmental agency or

App. 90
instrumentality of the
State) necessary to facilitate the operation of
the program; and
•

(D) Distributing program information to
employees from the
State (or governmental
agency or instrumentality of the State) and permitting the State (or
governmental agency or
instrumentality of the
State) to publicize the
program to employees;

•

(viii) The employer contributes no funds to the program and provides no bonus
or other monetary incentive
to employees to participate
in the program; [*59477]

•

(ix) The employer’s participation in the program is required by State law;

•

(x) The employer has no
discretionary authority, control, or responsibility under
the program; and

•

(xi) The employer receives
no direct or indirect consideration in the form of cash
or otherwise, other than

App. 91
consideration (including tax
incentives and credits) received directly from the
State (or governmental
agency or instrumentality of
the State) that does not exceed an amount that reasonably
approximates
the
employer’s (or a typical employer’s) costs under the
program.
•

(2) A State savings program
will not fail to satisfy the provisions of paragraph (h)(1) of this
section merely because the program –
•

(i) Is
directed
toward
those employers that do not
offer some other workplace
savings arrangement;

•

(ii) Utilizes one or more
service or investment providers to operate and administer
the
program,
provided that the State (or
governmental agency or instrumentality of the State)
retains full responsibility
for the operation and administration of the program;
or

•

(iii) Treats employees as
having automatically elected

App. 92
payroll deductions in an
amount or percentage of
compensation, including any
automatic increases in such
amount or percentage, unless the employee specifically elects not to have
such deductions made (or
specifically elects to have
the deductions made in a
different amount or percentage of compensation allowed
by the program), provided
that the employee is given
adequate advance notice of
the right to make such elections and provided, further,
that a program may also
satisfy this paragraph (h)
without requiring or otherwise providing for automatic
elections such as those described in this paragraph
(h)(2)(iii).
•

(3) For purposes of this section,
the term State shall have the
same meaning as defined in section 3(10) of the Act.

Signed at Washington, DC, this 24th day of August,
2016.

App. 93
Phyllis C. Borzi,
Assistant Secretary, Employee Benefits Security Administration, U.S. Department of Labor.

29 CFR 2510.3-2(d)
(d) Individual Retirement Accounts. (1) For purposes
of title I of the Act and this chapter, the terms “employee pension benefit plan” and “pension plan” shall
not include an individual retirement account described
in section 408(a) of the Code, an individual retirement
annuity described in section 408(b) of the Internal Revenue Code of 1954 (hereinafter “the Code”) and an individual retirement bond described in section 409 of
the Code, provided that—
(i) No contributions are made by the employer or employee association;
(ii) Participation is completely voluntary for employees or members;
(iii) The sole involvement of the employer or employee organization is without endorsement to permit
the sponsor to publicize the program to employees or
members, to collect contributions through payroll deductions or dues checkoffs and to remit them to the
sponsor; and
(iv) The employer or employee organization receives
no consideration in the form of cash or otherwise, other
than reasonable compensation for services actually

App. 94
rendered in connection with payroll deductions or dues
checkoffs.
(29 C.F.R. § 2510.3-2 (Lexis Advance through the July
19, 2021 issue of the Federal Register, with the exception of the amendments appearing at 86 FR 37676, 86
FR 37901, and 86 FR 37918).)

29 CFR 2509.99-1(d)
(d) Employer Limitations on the number of IRA
sponsors offered under the program. The Department
recognizes that the cost of permitting employees to
make IRA contributions through payroll deductions
may be significantly affected by the number of IRA
sponsors to which the employer must remit contributions. It is the view of the Department that an employer may limit the number of IRA sponsors to which
employees may make payroll deduction contributions
without exceeding the limitations of 29 CFR 2510.32(d), provided that any limitations on, or costs or assessments associated with an employee’s ability to
transfer or roll over IRA contributions to another IRA
sponsor is fully disclosed in advance of the employee’s
decision to participate in the program. The employer
may select one IRA sponsor as the designated recipient
for payroll deduction contributions, or it may establish
criteria by which to select IRA sponsors, e.g., standards
relating to the sponsor’s provision of investment education, forms, availability to answer employees’ questions, etc., and may periodically review its selectees to

App. 95
determine whether to continue to designate them.
However, an employer may be considered to be involved in the program beyond the limitations set forth
in 29 CFR 2510.3-2(d) if the employer negotiates with
an IRA sponsor and thereby obtains special terms and
conditions for its employees that are not generally
available to similar purchasers of the IRA. The employer’s involvement in the IRA program would also
be in excess of the limitations of the regulation if the
employer exercises any influence over the investments
made or permitted by the IRA sponsor.
(29 C.F.R. § 2509.99-1 (Lexis Advance through the July
19, 2021 issue of the Federal Register, with the exception of the amendments appearing at 86 FR 37676, 86
FR 37901, and 86 FR 37918).)

App. 96
California Government Code § 100000(d)
(d)(1) “Eligible employer” means a person or entity
engaged in a business, industry, profession, trade, or
other enterprise in the state, whether for profit or not
for profit, excluding the federal government, the state,
any county, any municipal corporation, or any of the
state’s units or instrumentalities, that has five or more
employees and that satisfies the requirements to establish or participate in a payroll deposit retirement
savings arrangement.
(2) Upon a positive determination pursuant to subdivision (a) of Section 100046, eligible employer means
an employer of a provider of in-home supportive services, as regulated by Article 7 (commencing with Section 12300) of Chapter 3 of Part 3 of Division 9 of the
Welfare and Institutions Code.
(3) “Eligible employer” does not include an employer
that provides a retirement savings program as described in subdivision (g) of Section 100032.

California Government Code § 100004(c)
(c) Moneys in the program fund may be invested or
reinvested by the Treasurer or may be invested in
whole or in part under contract with the board of a California public retirement system, with private money
managers, or in myRAs, or a combination thereof, as
determined by the board.

App. 97
California Government Code §§ 100010(a)(8) and
(a)(12)
(a) The board shall have the power and authority to
do all of the following:
...
(8) Retain and contract with the board of a California
public retirement system, private financial institutions,
other financial and service providers, consultants, actuaries, counsel, auditors, third-party administrators,
and other professionals as necessary.
...
(12) Collaborate and cooperate with the board of a
California public retirement system, private financial
institutions, service providers, and business, financial,
trade, membership, and other organizations to the extent necessary or desirable for the effective and efficient design, implementation, and administration of
the program and to maximize outreach to eligible employers and eligible employees.

California Government Code § 100034(b)
(b) Employers shall not be a fiduciary, or considered
to be a fiduciary, over the trust or the program. The
program is a state-administered program, not an
employer-sponsored program. If the program is subsequently found to be preempted by any federal law
or regulation, employers shall not be liable as plan

App. 98
sponsors. An employer shall not bear responsibility for
the administration, investment, or investment performance of the program. An employer shall not be liable
with regard to investment returns, program design,
and benefits paid to program participants.

California Government Code § 100036
The state shall not have any liability for the payment
of the retirement savings benefit earned by program
participants pursuant to this title. The state, and any
of the funds of the state, shall have no obligation for
payment of the benefits arising from this title.

California Government Code § 100043
(a) The board shall not operate the program if the
IRA arrangements offered fail to qualify for the favorable federal income tax treatment ordinarily accorded
to IRAs under the Internal Revenue Code, or if it is determined that the program is an employee benefit plan
under the federal Employee Retirement Income Security Act.
(b)(1) Prior to opening the program for enrollment,
the board shall report to the Governor and Legislature
the specific date on which the program will start to enroll program participants and that the following prerequisites and requirements for the program have
been met:

App. 99
(A) The program is structured in a manner to keep
the program from being classified as an employee benefit plan subject to the federal Employee Retirement
Income Security Act.
(B) The payroll deduction IRA arrangements offered
by the program qualify for the favorable federal income
tax treatment ordinarily accorded to IRA arrangements under the Internal Revenue Code.
(C) The board has defined in regulation the roles and
responsibilities of employers in a manner to keep the
program from being classified as an employee benefit
plan subject to the federal Employee Retirement Income Security Act.
(D) The board has adopted a third-party administrator operational model that limits employer interaction
and transactions with the employee to the extent feasible.
(2) The report required by paragraph (1) shall be submitted in compliance with Section 9795.

California Government Code § 100046
The CalSavers Retirement Savings Program is approved by the Legislature and implemented as of January 1, 2017. The board shall consider and utilize the
following parameters in designing the program:
(a) The board shall include a provider of in-home supportive services, as regulated by Article 7 (commencing

App. 100
with Section 12300) of Chapter 3 of Part 3 of Division
9 of the Welfare and Institutions Code in the program
if the board determines, and the Director of the State
Department of Social Services and the Director of the
Department of Finance certify, in writing, all of the following:
(1) The inclusion meets all state and federal legal requirements.
(2) The appropriate employer of record has been
identified for the purpose of satisfying all the program’s employer requirements.
(3) The payroll deduction, described in Section
12302.2 of the Welfare and Institutions Code, can be
implemented at reasonable costs.
(4) The inclusion does not create a financial liability
for the state or employer of record.
(b) The board shall structure the program so as to ensure the state is prohibited from incurring liabilities
associated with administering the program and that
the state has no liability for the program or its investments.
(c) The board shall determine necessary costs associated with outreach, customer service, enforcement,
staffing and consultant costs, and all other costs necessary to administer the program.
(d) The board shall consult with employer representatives to create an administrative structure that
facilitates employee participation while addressing

App. 101
employer needs, including, but not limited to, clearly
defining employers’ duties and liability exemption pursuant to Section 100034.
(e) The board shall include comprehensive worker
education and outreach in the program, and the board
may collaborate with state and local government agencies, community-based and nonprofit organizations,
foundations, vendors, and other entities deemed appropriate to develop and secure ongoing resources for
education and outreach that reflect the cultures and
languages of the state’s diverse workforce population.
(f) The board shall include comprehensive employer
education and outreach in the program, with an emphasis on employers with fewer than 100 employees,
developed in consultation with employer representatives, with the integration of the following components:
(1) A program internet website to assist the employers of participating employees.
(2) A toll-free help line for employers with live and
automated assistance.
(3)

Online internet web training.

(4)

Live presentations to business associations.

(5) Targeted outreach to small businesses with 10 or
less employees.

